<html>
<title> - [H.A.S.C. No. 115-86]</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]


                                     
 
                         [H.A.S.C. No. 115-86]
    ______________________________________________________
    
                     SECURITY CHALLENGES IN EUROPE

                      AND POSTURE FOR INTER-STATE

                        COMPETITION WITH RUSSIA

                               __________

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             SECOND SESSION

                               __________

                              HEARING HELD

                             MARCH 15, 2018


                                     
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                              _________ 

                U.S. GOVERNMENT PUBLISHING OFFICE
                   
29-490                  WASHINGTON : 2019      



                                     
                      COMMITTEE ON ARMED SERVICES
                     One Hundred Fifteenth Congress

             WILLIAM M. ``MAC'' THORNBERRY, Texas, Chairman

WALTER B. JONES, North Carolina      ADAM SMITH, Washington
JOE WILSON, South Carolina           ROBERT A. BRADY, Pennsylvania
FRANK A. LoBIONDO, New Jersey        SUSAN A. DAVIS, California
ROB BISHOP, Utah                     JAMES R. LANGEVIN, Rhode Island
MICHAEL R. TURNER, Ohio              RICK LARSEN, Washington
MIKE ROGERS, Alabama                 JIM COOPER, Tennessee
BILL SHUSTER, Pennsylvania           MADELEINE Z. BORDALLO, Guam
K. MICHAEL CONAWAY, Texas            JOE COURTNEY, Connecticut
DOUG LAMBORN, Colorado               NIKI TSONGAS, Massachusetts
ROBERT J. WITTMAN, Virginia          JOHN GARAMENDI, California
DUNCAN HUNTER, California            JACKIE SPEIER, California
MIKE COFFMAN, Colorado               MARC A. VEASEY, Texas
VICKY HARTZLER, Missouri             TULSI GABBARD, Hawaii
AUSTIN SCOTT, Georgia                BETO O'ROURKE, Texas
MO BROOKS, Alabama                   DONALD NORCROSS, New Jersey
PAUL COOK, California                RUBEN GALLEGO, Arizona
JIM BRIDENSTINE, Oklahoma            SETH MOULTON, Massachusetts
BRAD R. WENSTRUP, Ohio               COLLEEN HANABUSA, Hawaii
BRADLEY BYRNE, Alabama               CAROL SHEA-PORTER, New Hampshire
SAM GRAVES, Missouri                 JACKY ROSEN, Nevada
ELISE M. STEFANIK, New York          A. DONALD McEACHIN, Virginia
MARTHA McSALLY, Arizona              SALUD O. CARBAJAL, California
STEPHEN KNIGHT, California           ANTHONY G. BROWN, Maryland
STEVE RUSSELL, Oklahoma              STEPHANIE N. MURPHY, Florida
SCOTT DesJARLAIS, Tennessee          RO KHANNA, California
RALPH LEE ABRAHAM, Louisiana         TOM O'HALLERAN, Arizona
TRENT KELLY, Mississippi             THOMAS R. SUOZZI, New York
MIKE GALLAGHER, Wisconsin            JIMMY PANETTA, California
MATT GAETZ, Florida
DON BACON, Nebraska
JIM BANKS, Indiana
LIZ CHENEY, Wyoming
JODY B. HICE, Georgia

                      Jen Stewart, Staff Director
                Katie Sendak, Professional Staff Member
                 Katy Quinn, Professional Staff Member
                         Britton Burkett, Clerk
                         
                            C O N T E N T S

                              ----------                              
                                                                   Page

              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Smith, Hon. Adam, a Representative from Washington, Ranking 
  Member, Committee on Armed Services............................     2
Thornberry, Hon. William M. ``Mac,'' a Representative from Texas, 
  Chairman, Committee on Armed Services..........................     1

                               WITNESSES

Scaparrotti, GEN Curtis M., USA, Commander, U.S. European Command     3

                                APPENDIX

Prepared Statements:

    Scaparrotti, GEN Curtis M....................................    46
    Smith, Hon. Adam.............................................    44
    Thornberry, Hon. William M. ``Mac''..........................    43

Documents Submitted for the Record:

    [There were no Documents submitted.]

Witness Responses to Questions Asked During the Hearing:

    [There were no Questions submitted during the hearing.]

Questions Submitted by Members Post Hearing:

    Mr. Banks....................................................    73
    Mrs. Murphy..................................................    71
    Mr. Panetta..................................................    75
    Ms. Speier...................................................    71
    
 SECURITY CHALLENGES IN EUROPE AND POSTURE FOR INTER-STATE COMPETITION 
                              WITH RUSSIA

                              ----------                              

                          House of Representatives,
                               Committee on Armed Services,
                          Washington, DC, Thursday, March 15, 2018.
    The committee met, pursuant to notice, at 10:03 a.m. in 
room 2118, Rayburn House Office Building, Hon. William M. 
``Mac'' Thornberry (chairman of the committee) presiding.

  OPENING STATEMENT OF HON. WILLIAM M. ``MAC'' THORNBERRY, A 
    REPRESENTATIVE FROM TEXAS, CHAIRMAN, COMMITTEE ON ARMED 
                            SERVICES

    The Chairman. The committee will come to order.
    The committee welcomes General Scaparrotti back today to 
testify on the threats and posture in the European Command's 
area of responsibility. There he faces the full range of 
security challenges, from Russia's constant modernization of 
its nuclear weapons and delivery systems to the hybrid and 
political warfare it wages against the United States and 
others. Its tactics extend, as we have been reminded this week, 
to targeted assassinations, as well.
    I think that it is clear that the United States has 
neglected both ends of the warfare spectrum in recent years and 
much in between. But the recent budget agreement and the new 
National Defense Strategy and Nuclear Posture Review give us 
the chance to begin to do better.
    We must do better across the board. It is not enough to 
advocate for a more robust cyber response to Russia's attempts 
to meddle in our elections, but waiver on our response to their 
renewed nuclear or territorial ambitions. Likewise, we cannot 
build up our missile defenses and nuclear deterrent but leave 
significant cyber intrusions unanswered.
    It is essential, in my view, that we face all of these 
challenges with clear-eyed objectivity and not allow domestic 
politics to color our view or affect our actions. The United 
States and our allies and our interests are threatened by the 
full range of Russian capability and by its increasing 
belligerence. Our job is to address them in the military sphere 
in order to protect our Nation's security, nothing more and 
nothing less.
    I would yield to the ranking member.
    [The prepared statement of Mr. Thornberry can be found in 
the Appendix on page 43.]

STATEMENT OF HON. ADAM SMITH, A REPRESENTATIVE FROM WASHINGTON, 
          RANKING MEMBER, COMMITTEE ON ARMED SERVICES

    Mr. Smith. Thank you, Mr. Chairman. And thank you, General 
Scaparrotti. It is good to see you again. I always appreciated 
your time out at Joint Base Lewis-McChord and your leadership 
out there, and certainly your leadership now for us in Europe.
    And I certainly agree with the chairman; Russia is the big 
issue. Not the only, but the big issue in the European Command 
[EUCOM], and how we counter their increasingly aggressive 
behavior.
    I would disagree slightly--and I do not think the chairman 
meant it quite this way--it is not just a military challenge. 
Obviously, we are here in the Armed Services Committee, you are 
the EUCOM commander, so that is your primary focus.
    But it is a broader challenge to confront Russia. And we 
had the opportunity to have a conversation with you yesterday a 
little bit about that. In addition to being a military 
commander, you are also occasionally a diplomat, in terms of 
being able to stay in touch with your Russian counterparts to 
try to make sure there are no misunderstandings and we do not 
stumble into a conflict.
    And I would also be remiss again if I did not point out 
that, in confronting this, diplomacy is enormously important, 
which means that the State Department is enormously important 
there, an indispensable partner for what you and what the rest 
of the Department of Defense are trying to do. And right now 
the State Department is not in a good place. Certainly they are 
transitioning from one leader to the next. We are not sure, you 
know, how the confirmation process is going to go. But it has 
been a tumultuous year at the State Department. That needs to 
get figured out, because diplomacy is going to be a big part of 
this.
    I agree with those folks, including many on this panel, who 
have identified the fact that we have moved back into an era of 
great power conflict. I do not agree that that conflict 
necessarily has to be military. You have to handle it in a 
variety of different ways, in order to try to move it in a 
different direction.
    The one big thing on Russia, yes, they are moving forward 
in terms of increasing their capabilities in a variety of 
areas. But the one big area where they are actually acting on a 
consistent basis is in their disinformation cyber campaign. And 
there is an area where I think we are behind. And some of these 
other areas that the chairman mentioned we are worried because 
the Russians are catching up and potentially getting to the 
point where they could surpass us in capability. But when it 
comes to cyber, when it comes to disinformation campaign, we 
are barely on the playing field at this point.
    We have all, you know, read about Russia's efforts to 
influence our election here in the United States. They are 
doing it across Western Europe. And it is not just elections. 
They are spreading a message, and that message is that 
authoritarian regimes are better than democracy: backing Assad 
in Syria, the things that they are doing down in Libya. They 
are undermining the basic tenets of what we stand for, which is 
political freedom and economic freedom. And we have to counter 
that.
    In fact, General, you said something very interesting 
yesterday during our classified brief. This was not classified, 
I do not think, but that a poll of people in Western Europe, 
asking them how important democracy was, a poll of the younger 
generation, it was shocking to see that it was not a very high 
percentage that said it was important. The basic notion that 
political freedom is the way to govern a country and to govern 
the world is being eroded.
    Now, there is a lot of reasons for that, but I would submit 
that one of the biggest ones is a concentrated campaign by 
Vladimir Putin to undermine it. We need to counter that. So I 
am very interested to hear today what we are doing on that 
information campaign.
    And obviously, as the chairman mentioned, there are 
military challenges, as well.
    But I will just close by saying I think the ideal outcome 
here is that we figure out a way to work with Russia. I will, 
oddly, agree with the President, at least in that sentence, not 
necessarily in the way he has chosen to go about doing it. But 
the world is a better place if the great powers of the world--
the United States, Russia, China, the European Union--get along 
and confront global challenges.
    You know, whether it is terrorism, global warming, if we 
work together to confront the things that challenge us all, we 
are better off than if we get involved in conflicts with one 
another. And I am still optimistic that there are paths to get 
to that place.
    So I look forward to your testimony, I thank you for your 
leadership, and thank you for being here.
    I yield back.
    [The prepared statement of Mr. Smith can be found in the 
Appendix on page 44.]
    The Chairman. Again we welcome back General Scaparrotti, 
Commander, U.S. European Command and Supreme Allied Commander 
of NATO [North Atlantic Treaty Organization].
    General, without objection, your full written statement 
will be made part of the record and you are recognized now for 
any oral comments you would like to give.

 STATEMENT OF GEN CURTIS M. SCAPARROTTI, USA, COMMANDER, U.S. 
                        EUROPEAN COMMAND

    General Scaparrotti. Chairman Thornberry, Ranking Member 
Smith, distinguished members of the House Armed Services 
Committee, thank you for the opportunity to testify before you 
as the commander of the United States European Command. It is 
an honor to represent more than 60,000 men and women who are 
forward-deployed supporting the U.S. mission in Europe.
    Our soldiers, sailors, airmen, Marines, coastguardsmen, and 
civilian workforce continue to demonstrate selfless service and 
dedication in an increasingly complex and competitive security 
environment. Our adaptation to this environment has made 
significant progress, thanks to resourcing provided by 
Congress, particularly under the European Deterrence Initiative 
[EDI]. EUCOM deeply appreciates Congress's support for EDI, 
which has supported the largest reinforcement of the Euro-
Atlantic defense in a generation.
    In augmenting our defense, the United States has been 
joined by the NATO alliance, which remains critical to our 
national security and a rules-based international order. Every 
challenge we face as a Nation is best addressed with our 
allies, and I am proud to report the NATO alliance is strong, 
it is united, and it is committed to being fit for purpose.
    Our European allies and Canada have turned a corner on 
defense spending, with increases in each of the past 3 years. 
During this time they have added $46 billion to our collective 
defense, including a $5 billion increase from 2016 to 2017. In 
2018, 8 countries will meet NATO's 2 percent spending target, 
and by 2024 at least 15 nations are on pace to reach or exceed 
the 2 percent mark.
    As these commitments demonstrate, NATO is adapting to 
ensure it is vigilant in peace, responsive in crisis, and it 
possesses the strategic depth for high-end, large-scale, multi-
domain conflict.
    Together with NATO, the United States has made significant 
progress. But we have much work to do as we execute our 
National Defense Strategy, fielding an increasingly lethal, 
agile, and resilient joint force, in long-term strategic 
competition with Russia, and ready to counter violent extremist 
organizations.
    Russia is carrying out a campaign of destabilization to 
change the international order, fracture NATO, and undermine 
U.S. leadership around the world. At sea, on land, and in the 
air, Russia increasingly--Russia's increasingly modernized 
military is operating at levels not seen since the Cold War. At 
the same time, Russia is using indirect activities to advance 
its strategic objectives. Throughout Europe, along its 
periphery, in the Middle East, and beyond, Russia has 
demonstrated a willingness and capability to use political 
provocation, spread disinformation, and undermine democratic 
institutions.
    In response to the challenge posed by Russia's pursuit of 
power, the U.S. has increased its posture in Europe by 
deploying rotational forces to include an armored brigade 
combat team [ABCT] and a combat aviation brigade.
    Additionally, we have implemented the framework battalion 
task force for NATO's enhanced forward presence in Poland; we 
pre-positioned equipment for additional ABCT; we have doubled 
our maritime deployments to the Black Sea; we have exercised 
theater antisubmarine warfare operations; we have executed 
bomber assurance and deterrence missions in Europe; and, for 
the first time, we have deployed fifth-generation fighters to 
Europe.
    The U.S. has taken these actions in coordination with NATO. 
Since the 2016 Warsaw Summit, NATO has made significant gains 
in meeting its security commitments and in implementing 
decisions to enhance our collective defense. NATO has 
implemented its enhanced forward presence with four 
multinational battle groups, backed by 29 nations. It has also 
established a tailored forward presence in the Black Sea 
region.
    Additionally, the U.S. and NATO are putting a spotlight on 
Russian meddling and interference, countering Russian 
misinformation with truthful and transparent information, and 
reinforcing our winning narrative of sovereignty, freedom, the 
dignity of the individual, and the rule of law.
    The second major threat we face throughout the European 
area of operations is violent extremist terrorist groups. Since 
2014, Europe has endured 18 major terrorist attacks. While the 
Defeat ISIS [Islamic State of Iraq and Syria] coalition, which 
includes NATO now, recovers territory that was seized in Iraq 
and Syria, ISIS remains active and seeks to expand its 
operations across Europe.
    EUCOM provides forces for military operations against ISIS, 
such as Operation Inherent Resolve, and has increased 
information and intelligence sharing among U.S. agencies, 
international partners, and the private sector. With the EU 
[European Union] and NATO, EUCOM supports a tri-nodal community 
of action to identify and counter terrorist threats. Also, 
EUCOM has increased coordination with Europol [EU law 
enforcement agency] and Interpol [International Criminal Police 
Organization] to thwart terrorist activities.
    Our European allies fight alongside us, deploying forces 
worldwide to support U.S.-led counterterrorism operations, 
including OIR [Operation Inherent Resolve] and Operation 
Freedom Sentinel, and to conduct national counterterrorism 
missions. The allies remain committed to defeating violent 
extremists, and their support is essential to our ongoing 
counterterrorism efforts.
    Thanks to the resources provided by Congress, particularly 
through European Deterrence Initiative, EUCOM has made 
significant headway in establishing a defensive posture that is 
credible, capable, and relevant to our strategic objectives.
    As our National Defense Strategy states, a strong and free 
Europe, bound by shared principles of democracy, national 
sovereignty, and commitment to Article 5 of NATO's Washington 
Treaty, is vital to our security. The service members and 
civilians at EUCOM are making this strategy a reality. We stand 
ready to protect the homeland, strengthen the alliance, and 
ensure that Europe remains whole, free, and at peace.
    And Chairman, thank you, and I look forward to the 
committee's questions.
    [The prepared statement of General Scaparrotti can be found 
in the Appendix on page 46.]
    The Chairman. Thank you, General. I want to ask a question 
about this chemical weapon assassination attempt in Britain, 
as--at least as far as I know, this particular weapon that was 
used has only been made by the Russians.
    And this morning, in The Washington Post, the British 
Foreign Secretary writes that it is part of a pattern of 
reckless behavior: ``The common thread that joins the 
poisonings in Salisbury with the annexation of Crimea, the 
cyber attacks in Ukraine, the hacking of Germanys (sic) 
parliament, and Russian interference in foreign elections is 
the Kremlin's reckless defiance of essential international 
rules.''
    My question is do you agree with that statement, that this 
is a pattern of behavior that has in common the reckless 
defiance, or maybe even the attempt to undermine international 
rules? Do you agree with that? And do our NATO allies agree 
with that?
    General Scaparrotti. Chairman, I agree that it represents 
Russia's consistent disregard for international rules and 
norms, each of those instances that you talked about.
    You will note in this specific incident with the nerve 
agent that NATO has said that they stand by their ally, the 
U.K. [United Kingdom], and believe it is highly likely that 
Russia was complicit in this attack. And that was a statement 
that they made as an alliance of 29, to my understanding.
    We also believe that it is highly likely that they are 
complicit with the chemical weapons use, and we stand by our 
ally, and we support their efforts to fully determine who the 
responsible parties were, and hold them accountable.
    The Chairman. Well, I just say I--as I mentioned at the 
beginning, whether it is this incident, or cyberattacks, or 
Putin's boasting about new nuclear weapons, I think it is 
really critical for the alliance to stand together and push 
back against this whole range of activity. That is the only way 
for us to counter it.
    I am going to yield to the ranking member.
    Mr. Smith. Thank you, Mr. Chairman.
    Along those lines, in terms of--because I think the 
chairman is right, I think a huge part of this is holding 
Russia accountable--Russia is not altogether that powerful. 
They have all kinds of internal problems and economic weakness. 
And even their military is still nowhere near a match for ours. 
But they will push as far as they can push, if they think there 
is not a cost to it.
    So one specific question about that. The administration has 
delayed implementation of sanctions against Russia. As I 
understand it, the loose justification was they are waiting for 
Putin's election, like he might lose or something. I do not 
know.
    Does it not make sense at this point to be as aggressive as 
possible in implementing the sanctions that Congress has made 
available to the President, precisely to try to impose a cost 
upon Russia in much the same way that we are doing with Iran 
and China--or, sorry, Iran and North Korea?
    General Scaparrotti. Sir, I would--I cannot comment on the 
speed of the sanctions. I know that they are working.
    I would say, as you said earlier, that we have to address 
their activity with a whole-of-government response. And 
sanctions would be an appropriate part of that.
    Mr. Smith. Understood. And just something we have not 
talked about yet, Turkey is perhaps the other, you know, 
largest issue. Well, that and the whole issue of trying to make 
sure we keep NATO together and coordinated.
    But, you know, the conflict between Turkey and the Kurds, 
while we--Turkey is a valuable ally, without question, so are 
the Kurds. They were indispensable, in terms of what we did in 
Syria and Iraq in dealing with ISIS. What is your latest on how 
we might get to a better place between our two allies there, 
Turkey and the Kurds?
    General Scaparrotti. Yes, sir. As you stated, Turkey is a 
valued ally in EUCOM, a member of the countries in EUCOM. I 
work closely with them to continue our close relationship and 
actually restore the relationship to an extent because of the 
differences here with respect to the YPG [People's Protection 
Units] and their alliance with us in our D-ISIS campaign.
    Presently, as you know, the State Department is working 
closely with them. We have been involved in this. And we are 
presently, I think, working on a way to attempt to meet their 
legitimate concerns, their security concerns along the border, 
the terrorist attacks that they have inherent to their country 
and have had for some time, as well as meet our interests to 
ensure that we can complete the D-ISIS campaign which has 
presented a direct threat to the security of our country, as 
well.
    So that discussion is ongoing. I would prefer not to go 
into more depth, given that we are right in the midst of them 
now.
    Mr. Smith. But I think that is crucially important, that we 
find some way to make that work. And I understand there are 
legitimate concerns on both sides. I mean the Kurds, you know, 
have long wanted, you know, as great a degree of independence 
as they can get. At the same time, you could hardly blame 
Turkey for being upset that they routinely have terrorist 
attacks committed in their country.
    I will just close, and I do not have any more questions for 
you, but just with an editorial comment about Russia. I think 
we need an administration that sends a much clearer signal on 
Russia. The President's reluctance in instance after instance--
most recently even the one that the chairman just raised--
while, you know, our--a number of other government officials--I 
forget if it was the Secretary of State or the CIA [Central 
Intelligence Agency] director--I think it was the CIA director, 
who soon will be the Secretary of State, who said there is no 
question that Russia committed the attack that happened in 
England against the spies. Our own President was like, could 
have been, we do not know, might have been somebody else, sort 
of the same thing that he said about the interference in the 
elections that Russia has done.
    The longer the leader of our country gives Russia a pass 
and keeps saying, well, maybe they are doing bad stuff, maybe 
they are not, the tougher your job is going to be, the tougher 
it is going to be to truly hold them accountable. So whatever 
the reason for that is--I do not even know, would not even 
begin to guess--the President needs to speak clearly and 
forcefully against these Russian actions and stop acting like 
maybe they did not happen. And I think it really undermines our 
ability to confront what Russia is doing on all fronts that 
have been discussed, both by the chairman and me.
    And with that I will yield back.
    The Chairman. Mr. Wilson is recognized for 5 minutes.
    Mr. Wilson. Thank you, Mr. Chairman.
    And General Scaparrotti, thank you for your successful 
service. Your mission is absolutely critical, with little room 
for error.
    One of my primary concerns with EUCOM's ability to 
successfully defend its area of responsibility surrounds its 
ability to transport troops and/or equipment expeditiously 
across Europe. Antiquated infrastructure and inconsistent 
border crossing standards delay and disrupt our freedom of 
movement throughout the region, while training and exercising 
in the theater.
    Could you please describe what role the United States is 
taking in leading the effort to resolve these issues, and what 
other organizations--NATO, EU--are doing to address the 
challenge?
    General Scaparrotti. Thank you. I would agree that 
mobility, as I will call it broadly, within the Euro-Atlantic 
theater is very important to our deterrence and defensive 
capabilities. And it was not invested in through the years 
that--the past decade or more that we believed that Russia was 
a partner.
    I think we have turned the corner on that in this past 
year, in the sense that we have focus and energy among our 
European partners, as you said, to get a focus on improving our 
infrastructure, our rail and road, our ports, and our 
capability to handle the movement of military forces throughout 
Europe.
    We have done that in EUCOM through the work of, first, our 
logistics capacity in an assessment early of our ability to 
move, and the infrastructure that supports it. We have worked 
closely with both NATO, the J4 [director of logistics] in my 
SHAEF [Supreme Headquarters Allied Expeditionary Force] 
headquarters and NATO headquarters, as well as with the EU.
    So NATO and EU, as one of their primary cooperative 
efforts, is in fact mobility. That is important because it 
brings to bear the other elements of national power outside of 
the military that the EU can bring in economic, diplomatic, et 
cetera. So I think we have a good start, and we have a broad 
alliance of nations that are looking at this now.
    Mr. Wilson. And I was grateful to be with you in Munich and 
also in Brussels, where I saw the high regard of our allies for 
your efforts to address this issue.
    In December 2017 the President courageously changed the 
U.S. policy to provide defensive lethal assistance to Ukraine, 
and the State Department has subsequently approved the sale of 
Javelins to Ukraine. It is said that nearly 10,000 Ukrainians 
have been killed, as Putin has illegally invaded and occupied 
Crimea and the eastern portion of Ukraine. High hopes for a 
democratic and prosperous Russia have been crushed by Putin.
    What is your assessment of the impact of the new aid on the 
fight on the ground in Ukraine? How do you assess Russia's 
long-term strategy in Ukraine? And has it changed since the new 
policy?
    General Scaparrotti. Well, thank you. I will first start by 
saying that Ukraine is in a--what I would consider a hot fight 
right now. It is not a frozen conflict. Daily there is activity 
along the front and, unfortunately for Ukraine, a loss of life 
every week. And I fully support what we are doing to help build 
their capability to defend their own country and reform their 
security institutions, as well, which they are working closely.
    The assets that we have provided, funded by Congress to 
support them and support their development, has provided them 
with defensive capabilities, and with the Javelin that you 
specifically noted, and it--those assets go directly to their 
improved capability to establish the defense in the east, and 
become more and more competent and confident of their ability 
to secure, you know, their nation.
    What I have seen in Russia is Russia has continued to 
support what I call a proxy force to include providing regular 
military commanders in charge at company and above level of the 
separatists, or the proxy forces on the other side. I think it 
is too early to say whether or not we have seen a change as a 
direct result of the decisions that were just taken. But we 
will watch that closely.
    I will close by saying it is not my belief that Russia 
wants to resolve this conflict at this point. They certainly 
could do much more to move along, to move the Minsk Agreement 
forward, things like offering protection and allowing mobility 
of the mission that oversees this, which they are not doing. So 
I think they actually are attempting to just freeze this a bit 
and--to their advantage.
    Mr. Wilson. Thank you very much, again, for your 
leadership. And the persons serving with you, God bless you.
    The Chairman. Mr. Larsen.
    Mr. Larsen. Thank you, Mr. Chairman. I would yield my time 
to Mr. Brown of Maryland.
    Mr. Brown. Thank you, Mr. Larsen. Thank you, Mr. Chairman. 
Thank you, General, for your service and your testimony here 
today. I appreciate the opportunity to ask questions in a 
classified setting yesterday.
    I recently returned from a CODEL [congressional delegation] 
in Eastern Europe with Representative Stefanik, where we saw 
how partners such as Estonia, Latvia, Ukraine are working with 
your command to deter and counter the threat of and actual 
Russian aggression and expansionism. A critical component of 
that is forward deployment of our troops and equipment in the 
region.
    In your written testimony and at the Senate hearing last 
week you highlighted NATO's increased presence in the Baltic 
Region and in Poland and through the European Deterrence 
Initiative, which includes pre-positioning equipment and 
deploying enhanced forward-presence battalions along with 
armored brigade combat teams and combat aviation brigade on 
heel-to-toe 9-month rotation.
    My question: Given Russia's high tempo of exercises and 
troop placement on its borders, I would like to hear a little 
bit more about, you know, your thoughts on our forward force 
deployment. Is a heel-to-toe 9-month rotation the proper force 
posture for our forward-deployed units, or would a 1- or 2-year 
rotation be better? Or what about permanent presence of units?
    General Scaparrotti. Well, thank you, sir. And I appreciate 
your visit to those nations, as well. They are strong allies 
and, as you know, one of the smaller nations through the 
Baltics, but strong and active.
    First of all, I would say that I think our rotational 
period of about 9 months is the right one. We have had 
experience in our forces, and particularly in the Army, of 
rotating for a year or a year and additional 3 months or less, 
and we found that 9 months is about right for a number of 
reasons. And so, I would--in terms of rotation, I would stay 
with 9 months.
    With a rotational force, I get someone specifically trained 
for that mission, ready to come in. And actually, because of 
the ranges, et cetera, we have available, I think I return a 
force that is just as well trained when it returns to the 
States. So we at least maintain the readiness, if not build 
some readiness through that experience.
    In terms of rotational versus permanent, I do believe we 
need more forces in Europe. I do not think we are at the 
posture that I believe appropriate or required yet. And because 
of that, I think that there are some permanent forces I would 
like to have.
    The first ones I would like to have would be some of our 
enabling elements. For example, a fires brigade, et cetera, as 
a permanent force, and then continue the rotation of the mech 
brigade, until we reach a point that we might consider that, as 
well.
    The last thing I will say is that I lay a requirement out 
and the service determines how best to fill that. But I think 
some of these, again, are best provided in a permanent fashion.
    Mr. Brown. And would you include an aviation brigade as a--
one of those permanent forces that you would like to see?
    General Scaparrotti. I would, yes.
    Mr. Brown. Could you discuss some of the logistics and 
infrastructure challenges facing our forward-deployed troops, 
such as issues with freedom of movement and military 
construction in theater? And what steps are you taking under 
your command to address them?
    General Scaparrotti. As I said, our J4 has done an 
assessment in the past year--a little over a year ago we 
started it--in terms of the infrastructure status across Europe 
and what was required. With that we now, working with the 
nations involved, so that they understand their 
responsibilities, as well, as an ally or as a partner. And 
there is examples throughout Europe of them taking this on, in 
terms of their investment in ports, infrastructure, roads, 
change in rail.
    For instance, in NATO, at 29, they agreed to begin working 
the diplomatic and customs rules that allow the military to 
move expeditiously with less than 5 days' notice, for instance. 
Those are steps that are significant in making forward 
progress.
    We have already, through the--through Congress' support and 
the EDI, along with our partners, are investing in critical 
infrastructure, ports, things of that nature that we identified 
we need to improve in order to help with our mobility. And in 
just about all those cases, our ally in that place also invests 
in that, alongside of us, and invests more than we do, 
obviously. It is in their country.
    So I think we are making very good progress. We have got 
good examples of that. But there is a lot of work to do.
    Mr. Brown. Red, yellow, or green?
    General Scaparrotti. I would say yellow.
    Mr. Brown. Thank you. I yield back, Mr. Chairman.
    The Chairman. Mr. Turner.
    Mr. Turner. Thank you, Mr. Chairman. General Scaparrotti, 
good to see you again. I want to echo Joe Wilson's comments, 
having been with you in Munich at the Munich Security 
Conference, and then your presentation also to the NATO 
Parliamentary Assembly.
    I think in all--both of those, we were very proud of both 
your representation of the United States, but also to our 
allies. You have continued to make clear the threat that Russia 
poses in all of your presentations, including their meddling in 
elections, meddling in democracies, the threat that is posed to 
you and your ability to execute your job and task, and even the 
forward-deployed troops, what they are experiencing.
    On the mobility issue, I would like to expand a little bit 
on the questions that have been asked. You have done a great 
job in, I think, informing Congress that there are mobility 
issues. As we have expanded NATO, we did not undertake plans 
for how would we defend the space, and make sure that the 
infrastructure was there.
    But I think people would also be surprised at, when we 
approved the European Reassurance Initiative, that there were 
funds, there were U.S. funds that were necessary in order to be 
able to get our troops from point A to point B that went to 
infrastructure. You mentioned that briefly, that we were 
working with our NATO partners and allies as to what they need 
to invest in.
    Could you give us some examples of the types of things that 
you had to fund with the European Reassurance Initiative that 
you should not be funding, and that we need to work with our 
allies to make certain that the infrastructure supports so that 
you do not have to in the future?
    General Scaparrotti. Yes, sir. An example might be in MK 
[Mihail Kogalniceanu], which is a base in Romania, a very good 
base that they have. We are laying a concrete pad off the 
runway and investing in a little bit of the infrastructure that 
helps with the movement and mobility of troops through that 
port. And what they are doing is they agreed, as we improve 
that tarmac, improve their reception point off the runway, they 
agreed to include a fuel line and improve the rail line into 
there, all helpful to make this a good hub for movement of 
troops and equipment. They also are investing in the base 
itself, and accommodations for our troops that we rotate 
through there.
    So that is a really good example of where we have worked 
with another country in a place that we needed some mobility 
and a site to come in to. And there is others like that that 
are just improvements to aerial ports or seaports that help our 
mobility, help us get the capacity in that port.
    The other thing I would just like to mention--and I 
intended to mention earlier--was that the other thing we are 
doing that is important is we--as we rotate our forces, and the 
allies do, we are trying to bring them through different ports 
and move them by different means. And in doing that, we learn 
where we have issues. We develop that capability in our--in 
those countries, and their civilian infrastructure that 
supports that, and build muscle memory. So that has been an 
important part of this over the past year, as well.
    Mr. Turner. Well, that goes to my next question. Shortly 
after seeing you, I went to--I was in Germany and saw the 
Toledo Air Guard, which had just left Estonia. And they 
reported that, you know, there was a number of their missions 
that they were unable to accomplish because of some of the 
issues that you just described.
    And the questions that they had, obviously, was how is that 
captured. How can we be assured that, as we do the forward 
deployment of troops and they run into these impediments to be 
able to execute their missions, that it is captured, that it is 
worked, and that it is resolved so that we do have that future 
capability?
    General Scaparrotti. Yes, sir. We capture that in a very 
deliberate after-action review. And all of those exercises--
again, purposeful movement by certain ways, operations out of 
certain places capture the issues we have, bring it back up 
through the EUCOM J4, out to NATO J4, and the countries that is 
involved to capture that. That is exactly how we do it.
    We have examples, for instance, in movement of troops here 
this last summer for exercises where, you know, they were 
stopped at a border, put on a sidetrack for, like, 2 days, 3 
days. We had to work through customs. First we had to discover 
that we had troops sitting on a rail alongside, you know, 
alongside a border.
    But those things occur. We capture that, back up, and then 
we drill back down into it, whether it is a customs issue, a 
coordination issue, or it is an infrastructure issue.
    Mr. Turner. Thank you, General. Thank you, Chairman.
    The Chairman. Mr. Courtney.
    Mr. Courtney. Thank you, Mr. Chairman.
    Thank you, General, for your testimony yesterday and today. 
The Office of Naval Intelligence issued a report in 2015 called 
``The Russian Navy: A Historic Transition,'' and--again, a 
public document. And it states here that ``Submarines are the 
capital ships of the Russian Navy. This is dictated by Russia's 
geography; constrained direct access to major ocean areas 
everywhere but in the Pacific makes surface ship operations 
vulnerable to potential enemy action. The inherent covert 
nature of submarines enhances their survivability, whether 
operating locally or when transiting into more open sea 
areas.''
    And then it goes on to quote Admiral Chirkov of the navy, 
stating that the nuclear submarine fleet is the priority of the 
navy shipbuilding program.
    Again, one of your predecessors, Admiral Stavridis, 
testified here a couple years ago and kind of caught people's 
attention by stating that the submarine activity is roughly 
about 70 percent of what it was during the Cold War era. And he 
knows what he is talking about, because he sort of was there 
during a lot of that. And you mentioned in your opening remarks 
about the fact that antisubmarine activities is now--and, you 
know, kind of a restart, in terms of our forces, as well as the 
region.
    I realize some of this is classified and you talked about 
it a little bit yesterday, but I think it is important still to 
talk--create at least some picture, in terms of what you are 
dealing with, and what you are seeing. And I was wondering if 
you could comment a little more.
    General Scaparrotti. Yes, thank you. Well, Admiral 
Stavridis noted--he gave an estimate of what it was in. Just 
this last year, since the last time I testified here, we have 
seen activity in the Russian navy, and particularly undersea in 
their submarine activity, that we haven't seen since the 1980s. 
So the level of activity is up yet again. And, as you know, 
they are producing maritime enhancements to existing ships and 
new submarine that is definitely more modern and more 
challenging.
    While we remain dominant undersea, we have got to continue 
our investment, as the Navy has laid out, in order to maintain 
that dominance, just given their modernization and their 
increased activity with their forces.
    Mr. Courtney. And as far as, you know, working with, again, 
some of our allies in the region, again, this is something, 
again, sort of a restart, as I mentioned.
    General Scaparrotti. Yes, sir. It is important. You know, 
most of the allies and the United States does not have the same 
capacity that it had during the Cold War, when we were used to 
doing this together, particularly antisubmarine warfare, 
maritime operations. So we are all rebuilding our capacities, 
we are improving our capacities to meet the--you know, the 
challenges we have in this new environment, and Russia's 
modernization. Together we can handle this. We have proven that 
in this past year. But it does take all of us working together.
    And the other thing I would mention, it takes a mix of the 
forces, particularly antisubmarine warfare. You are talking 
air, surface, subsurface, sensors. It is a mix that allows us, 
along with our allies and their capabilities, to be successful.
    Mr. Courtney. Thank you. Last year's NDAA [National Defense 
Authorization Act] we included some language that allowed 
wounded Ukrainian soldiers to be treated in U.S. medical 
facilities in accordance with DOD [Department of Defense] 
rules. And again, I know that was just signed a couple months 
ago, but I wonder if you had any sort of comment in terms of 
just, A, how that was received, you know, by our friends in the 
Ukraine, and you know, whether or not you see that as a process 
that is actually going to happen.
    General Scaparrotti. I would say I am sure it was received 
very well. It is a very deliberate demonstration of our support 
for them and our close partnership, to care for one of their 
wounded.
    Mr. Courtney. Great.
    General Scaparrotti. And so, without a doubt--and I know 
their CHOD well, he is their chief of defense, truly cares 
about his forces and their care, as well as their training, so 
that they can fight and protect that country.
    Mr. Courtney. Great, thank you. I yield back.
    General Scaparrotti. Thank you.
    The Chairman. Mr. Coffman.
    Mr. Coffman. Thank you, Mr. Chairman.
    General, thank you so much for your service. My concerns 
were we are at an untenable position with Russia right now, and 
I want to get clarification of Article 5, your interpretation 
of it, because they have developed a hybrid system, or a sort 
of a--I guess you could call it hybrid tactics that involve 
information operations, I guess you could say, an element of 
psychological warfare, as well as using covert forces as 
proxies.
    And so, when we look at something like the Baltic States 
that I think have Russian minorities in them, much like the 
Ukraine, that they could do the same pattern there. And I am 
concerned that--would--that NATO would acquiesce to that, 
because they might not consider it a conventional attack under 
Article 5. What is your interpretation of that?
    General Scaparrotti. Well, first of all, NATO recognizes 
the difficulty in indirect or asymmetric activity that Russia 
is practicing, activities below the level of conflict. And, in 
fact, we have inserted that for the first time into our NATO 
exercise that we did this past year with some ambiguous 
activities that are consistent with what they would typically 
do, in order to bring this about and have that discussion at 
29.
    And so they are actually dealing with the issue around this 
and in cyber, and working to define an understanding of what 
would be a trigger for Article 5. So they are working that, and 
they recognize it.
    I would just share with you that is the most difficult 
scenario I see, potentially, is because of the way they 
typically work in a fashion that would be ambiguous, it would 
be most difficult to come to a decision. But I would share that 
NATO is aware of this, and they are actually working on it.
    Mr. Coffman. But do you not think that--you said that that 
is the most difficult scenario. Do you not think that is the 
most probable scenario right now? And do you not think one of 
the objections--objectives of Russia is--clearly, is to break 
NATO, and to test us, for instance, in one of the Baltic 
States?
    General Scaparrotti. I think that, absolutely, they are 
trying to undermine and splinter NATO. It is a difficult 
situation when they operate that way. But I am confident of 
NATO. I have seen the discussions. And I think in something 
that they agree is an attack warranting Article 5, that they 
can come together. I have seen them come together in other 
things less than this that was perhaps divisive at the time, 
but they can reach a conclusion.
    Mr. Coffman. Well, let me express to you that I do not 
necessarily share the confidence in our allies, because of 
the--there is a--was an agreed-upon 2 percent of GDP [gross 
domestic product] to be spent on defense, and the majority of 
our NATO allies are nowhere near that 2 percent requirement. 
And so it is--you know, is it that--well, obviously, they have 
other priorities within their budget.
    But that is a real concern, why they are not doing that. 
And there is an overreliance upon the United States. Could you 
comment on that?
    General Scaparrotti. I share your concern. And I press 
that, as well as the Secretary General. I press it as the 
SACEUR [Supreme Allied Commander, Europe] and as the EUCOM 
commander every place I go.
    They have to demonstrate a change. They have--as I stated 
in my opening statement, there is--there will be 8 that have 
made that 2 percent, and 15 that plan to make it, and we will 
continue to press that, as being a part of the alliance is also 
contributing as a part of the alliance, both in cash and 
contributions and capability. So that is what we are watching. 
And I agree that we need to press that.
    I would add that if you look at NATO and say--since Warsaw, 
for instance, and the adaptation, the recognition as Russia is 
a threat here, a competitive nation. All of those things that I 
noted about the forward posture of troops in the east, our air 
policing activity, a much more increased maritime activity, 
particularly in the Black Sea and the Baltics, everything that 
I do there as the SACEUR was agreed at 29. That is why I have 
confidence in NATO. These are tough decisions for them and 
within their countries, and they have been able to act over the 
past year.
    Mr. Coffman. Thank you, Mr. Chairman. I yield back.
    The Chairman. Mr. Veasey.
    Mr. Veasey. Thank you, Mr. Chairman. I wanted to 
specifically talk with you about Russia and the Balkans. I know 
that there have been several investments that Russians have 
wanted to make in the Balkans. There was a pipeline project, I 
believe, about a year or so ago that did not quite work out the 
way they anticipated. There have also been some credit and 
remittance issues, some other foreign trade things that did not 
quite go the Russians' way, but it is definitely--it is clear 
that they want to continue to have influence there.
    In your opinion, how far are they willing to go to make 
sure that they can continue to have a certain amount of 
influence there in that region, even though some of the things 
that they are working on, economically, just have not [borne] 
any fruit?
    General Scaparrotti. Well, what I see is offers, for 
instance, of military equipment and military assistance. And 
sometimes the military equipment is surely below the cost to 
them.
    But as you watch them work in Europe and on the periphery 
in countries that they work with, they will offer that 
equipment at a very low cost in order to ensure that they--you 
know, that they will take it. They will offer then support and 
bring in troops. And then they will decide that the troops need 
to stay, as a matter of influence and some leverage, I would 
say, over time. Those are the things that I see them doing on 
the military side.
    Beyond that, very common disinformation campaigns in the 
nations, you know, within the Balkans, stirring political 
debate, support for fringe political parties in order to stir 
that debate, and a very consistent message that is anti-West, 
anti-NATO, anti-U.S.
    Mr. Veasey. If their demographic crisis is real--and it has 
been, you know, reported that they are losing population--and 
these investments that they are offering to people are not 
going through and, again, they are just--they are not, you 
know, yielding anything, how long can they continue to keep up 
that sort of disinformation and continue to be a powerful 
player there, if they are suffering in all these areas, 
economically?
    General Scaparrotti. You know, there are some that look at 
their demographics, they look at their economy, health issues, 
et cetera, and would say that while they are in a great power 
competition, as you look long range they just cannot sustain 
this.
    My view would be that the--you know, the Russian people are 
used to adversity. They almost, as a culture, embrace that. And 
that even with a difficult economy, President Putin has been 
able to reverse the trend and it is, I think, approaching 2 
percent growth. I think they have great resilience.
    And that is not what we should count on. We should count on 
our ensuring that we are strong and we deter their activities.
    Mr. Veasey. How do you think that we should continue to try 
to influence the countries there in the Balkans to make 
positive steps towards NATO?
    General Scaparrotti. I think it is important that we have a 
whole-of-government approach, diplomatic engagement there, 
which we do, but also encouragement from our allies there. We 
need to work with them to build Western democratic 
institutions. There is clearly a desire among the population in 
the Balkans to come West. But we have got to show them that we 
are just as interested in that as they are.
    Mr. Veasey. Thank you.
    Mr. Chairman, I yield back.
    The Chairman. Mr. Scott.
    Mr. Scott. Thank you, Mr. Chairman. General, it is nice to 
see you again.
    I want to follow up on a little bit of the line of 
questions that my colleague, Mr. Veasey, was asking. Russia is 
a huge country land mass, the largest country--my understanding 
is--on the Earth. They border, depending on how you count them, 
over 12 countries, including North Korea and China on the 
eastern side. But then, when you come back to the part of the 
world that you are in charge of, they border a number of 
countries in the European theater.
    My question is, are they engaging in malign activities 
against all of them? And, if not, which countries are they not 
engaging in these activities against?
    General Scaparrotti. I think, you know, I have probably 
seen some activity in most countries. And, you know, those that 
they do not have a certain focus on, you still see that 
activity in their media, because their media is laced with a--
you know, an anti-Western, anti-international order kind of 
message, undercutting democratic countries, undercutting 
governments that they are in--and that is kind of where they 
are light, and then focused more particularly in the east, the 
countries that were once a part of the Soviet Union. You know, 
they see that as their strategic space, and they think they 
should have some preferential influence in those nations. So it 
is much heavier there.
    But even in the other countries of Europe, if you go to the 
west--Italy, France, Germany, et cetera--there is examples 
there of same, you know, use of disinformation, social media, 
and those kinds of activities, as well.
    Mr. Scott. That is--I have only been over there a few weeks 
in the last couple of years. But the perception that I had was 
that they are engaged in all of those, and basically they are 
going to stir chaos wherever they can. And then, when they see 
a weakness, they would take advantage of it.
    And you answered this question earlier, when Mr. Veasey 
asked it, but the question I had is how long can they sustain 
that against all of the countries? And how long do all the 
other countries go without at some point taking an action 
against Russia to actually stop, stop this? I mean----
    General Scaparrotti. Yes, I cannot answer how long they 
could go. I would say they are a resilient nation and a 
culture. And so I think we have to take action to--in order to 
establish a deterrent effect. And that is to respond to 
demonstrate capability and demonstrate the will to use it, if 
necessary.
    Mr. Scott. I worry--and I am just making this as a 
statement--with regard to Turkey being on their border. I worry 
about them using their activities to create a disturbance in 
Turkey, potentially a coup there, where somebody friendly to 
them took over, even if they took over for only a day or two, 
with our assets in that country, the potential damage that they 
could do, simply by seizing some of our assets.
    Are you comfortable that that relationship with Turkey is 
strong enough, and we have enough insight into that, that if 
that began to happen, that we would have the ability to protect 
all of our assets in that country?
    General Scaparrotti. Yes, sir. I am comfortable with that. 
We have a very good mil-to-mil relationship with Turkey. I 
speak to their chief of defense often. Our staffs have 
interchange. They have been very responsive to us, in terms of 
force protection, as well. So any concern that either through 
their intelligence or ours about a threat to our forces that 
are stationed there, et cetera, they have taken immediate 
action.
    So I--in terms of their demonstration, the relationship we 
have, I am confident of that, and the protection of our force 
there.
    If I could follow up on the other when I talk about we have 
to demonstrate, I want to emphasize that we, as the alliance 
and our partners--because our strength, you know, versus 
Russia's, strategically, really is the fact that we have such a 
great alliance and such great partners. That is important. And 
they recognize that.
    Mr. Scott. Absolutely. And they do not seem to be--they do 
not seem to have many, which is good.
    Well, I want to just thank you for your service and for 
being here, and I look forward to making it back to that part 
of the world to see it.
    The Chairman. Mr. O'Rourke.
    Mr. O'Rourke. Thank you, Mr. Chairman.
    General, could you briefly give us an idea of what the 
capacity is on the Russian side to continue or accelerate this 
level of military spending?
    General Scaparrotti. Well, I think that, you know, just 
from what I understand of their budget and what they are doing, 
they--their budget is improving. But they do have a difficult 
hand to play here.
    So--and what we have seen is they have slowed down their 
modernization. I think you will continue to see decisions in 
that regard, but not enough to make a huge difference. In other 
words, it will draw it out by maybe 2 to 5 years, but I think 
they know what they want to establish, the capabilities they 
need, and they have been very focused on that over a number of 
years.
    So I think you may see it drawn out, but I do not think you 
will see them stop in terms of what they believe they need as a 
part of their military capabilities.
    Mr. O'Rourke. Thank you. In February, Admiral Rogers, head 
of Cyber Command and NSA [National Security Agency], said--and 
I am quoting him--``President Putin has come clearly to the 
conclusion that there is little price to pay. And therefore''--
and then he is quoting Putin--`` `I can continue this 
activity'.'' Clearly, what we have done has not been enough in 
regards to what action we have taken to deter Russia and 
election meddling. And perhaps we could extend that to Syria, 
to Crimea, to Ukraine, to involvement in European elections, to 
the involvement in the 2018 elections in the United States, to 
the involvement in the 2020 elections.
    You said to the Senate Armed Services Committee last week, 
``I don't believe there is an effective unification across the 
interagency with the energy and focus that we could attain.'' 
How can you assure us that we are going to achieve that and, to 
follow up on the ranking member's question, that there is a 
price to pay for Russia that will deter this kind of activity, 
going forward?
    General Scaparrotti. Well, I can tell you that within 
Department of Defense, and as far as I am concerned, we are 
working closely within the interagency to develop both the 
structure and enhance the energy that I talked about. I think 
that is the issue. We have got to--we have a lot of capacity, 
we have a lot of talent.
    Particularly, that was directly from a question about 
activity below the level of conflict. And so, when it comes to 
information operations, our capacity in cyber, our ability in 
diplomacy, and truthful media, we have great capacity. We have 
got to focus that capacity as a whole of government on this 
problem set, so that they know there is a response, and we can 
overcome that.
    And, you know, we have seen instances in Europe now where 
we have developed the structure and the volume at specific 
times within the media to influence their disinformation, to 
influence their actions as a result. This can be done, we have 
got to pull this together and get after it.
    Mr. O'Rourke. Yes. I am convinced of your intent, and the 
will, and the dedication, excellence of those who serve under 
you. I am not convinced of the strategy or the efficacy at this 
point. I do not understand--I would not expect you to tell me 
that everything is okay, because it is--definitely not. And 
you, yourself, have said that it is not. You said, ``We are 
getting a better understanding of it. I would not characterize 
it as a good picture at this point, not satisfactory to me.''
    You have talked about Russian activity related in the 
United States to infrastructure reconnaissance, et cetera. You 
said, ``I will leave it at that.'' What I would like, though, 
is not to be assured that it is okay, but to have some 
assurance in a strategy that we can all understand and 
articulate, and a commitment to this threat articulated by the 
President on down.
    And I am not seeing that, my constituents are not seeing 
that. I am getting asked those questions. That is why I am 
asking them of you today, so that I can go back to them and 
have an understanding of what that is. It does not sound, it 
does not look like, if we just connect the dots from Russia's 
activity from Georgia to today, that anything we have done has 
deterred them. Convince me to the contrary.
    General Scaparrotti. Well, I cannot, you know--broadly, 
they have not been deterred. They act today in the information 
realm. They continue to take activity below the level of 
conflict.
    Mr. O'Rourke. Is there anything you are doing now, or plan 
to do in the near future, that will deter them?
    General Scaparrotti. We are taking actions that do deter 
them, as I said, in specific areas. We have the capacity to do 
this. We are taking all kinds of activities. And I think it is 
across the whole of government, as well.
    We have a deterrent effect in the East, no doubt about it, 
with respect to--and it is not just the military component that 
does that. You know, we have a deterrent effect, 
conventionally. Within information cycle, it is a new domain. 
It is in a--it is a domain today that is connected, it is fast. 
So this is not easy, and it is new. And that is the area that 
we--and probably one of the toughest areas to deter and act.
    Mr. O'Rourke. Thank you for your answers and for your 
service.
    General Scaparrotti. Yes.
    The Chairman. Mr. Byrne.
    Mr. Byrne. Thank you, Mr. Chairman.
    General, I am over here. First of all, thank you for your 
service to our country. We genuinely appreciate what you 
continue to do for us every day.
    All of us have watched with dismay what has happened in 
Eastern Ukraine. Over 10,000 people are dead. And I am glad to 
see that we are now beginning to give them the help that they 
have been asking for for some time. But as you know, Ukraine is 
not a member of NATO, whereas there are other countries in that 
region--and I am thinking specifically of the Baltics--that are 
members of NATO, and to which, by virtue of the fact that we 
are members of NATO, we owe them a substantial obligation if 
somebody does something to them, somebody invades them.
    So, two questions. Do you think something like what has 
happened in Eastern Ukraine could happen in the Baltics? And, 
if so, what would U.S. involvement look like to honor our 
obligations to those countries?
    General Scaparrotti. Well, in answer to that, I do not want 
to speculate about, you know, what we would do, et cetera. I 
would just say this: We have an agreement at--with members in 
NATO that an Article 5 attack on one is an attack on all. And 
we would honor that. There is no doubt in my mind about it. We 
would come to their assistance.
    I think Russia is deterred from taking an action like that, 
like trying to seize a portion of one of the countries on the 
border, because they know NATO is 29 nations, it is much 
stronger, and that we would win that conflict. They do not want 
a conflict in that regard. So I personally do not believe they 
would take that step.
    Mr. Byrne. Well, I would hope they would not, as well.
    General Scaparrotti. I would hope not, too.
    Mr. Byrne. But hoping is not a plan, as you know. I assume, 
whether you can tell us about the details of it or not, I 
assume that there is a plan if they try to do something.
    General Scaparrotti. There is a plan.
    Mr. Byrne. Good. Are we providing you--is Congress 
providing you with the authorization and resources you need to 
implement that plan?
    General Scaparrotti. Sir, the budget that is presented 
here--and when I talk about the budget, I am also looking at 
the FYDP [Future Years Defense Program], you know, the out-
years. Since I have been in this job, this is the first time in 
the budget that I have said, ``Here are my requirements,'' and 
they are being addressed in some way throughout the FYDP. So I 
am very pleased with this. And I think, with that regard, it is 
sufficient.
    But, listen, it will take us those years to really put us 
in a posture that I believe that we should be in, and we are 
best in to assure deterrence of Russia and any idea that they 
might have to take an act, to assure that we deter any thoughts 
or opportunities they might think they have.
    Mr. Byrne. Well, I want to make sure that--I believe with 
all my heart you are doing and the people under you are doing 
what they are supposed to be doing. But sometimes you have to 
tell us what we need to do to provide you with both the 
authorization and the resources to do what you need to do. And 
I hope you will not be reticent about telling us what you need, 
because until we know that, it is hard for us to do what we 
have got to do.
    There was--as you probably know, we had quite an effort to 
get the level of spending up for the Department of Defense for 
both this fiscal year and next fiscal year. That did not come 
about by happenstance, and it took an enormous amount of 
effort. We need the information and the push sometimes from you 
and people that are working with you so that we get what we 
need to get done here in Congress for you.
    General Scaparrotti. Sir, first of all, thank you. I 
understand this has not been easy. My message to you is you 
will know clearly what my assessments are. And in a number of 
these things, in a classified document, I will tell you exactly 
what my requirements are, and to the extent that you can look 
at it across the FYDP and see actually whether they are being 
addressed and how quickly they are being addressed. But I will 
be very clear about that, and I appreciate, you know, Congress 
and the committee's diligence in this. Thank you.
    Mr. Byrne. Well, I think everybody on the committee 
appreciates your directness with us. Sometimes the more direct 
you are, the more likely we are to be responsive to you. And I 
just want to encourage you to do that, because I believe you do 
have a plan. We probably will learn about it another time, when 
it is appropriate. But I always worry that you have got a great 
plan, and we have not always given you the authorization and 
the appropriations you need. Tell us what you need, and I think 
you will find this committee ready to work with you.
    I yield back, Mr. Chairman.
    The Chairman. Mr. Gallego.
    Mr. Gallego. Thank you, Mr. Chair.
    General, one of the things that I have been advocating for 
since getting here is moving the EDI from being based on OCO 
[overseas contingency operations] funds to the base budget. I 
certainly think that if we want to talk about a commitment and 
a show of force, at least to Russia, that we are committed to 
Europe, that would be the route to do it. And, of course, also 
to assure our NATO allies that we are there with them in the 
fight, and not just in a 1-year process.
    What would change, from your perspective, in terms of 
planning, if we moved EDI out of OCO and into the base budget?
    General Scaparrotti. First of all, I would support going to 
a base budget out of OCO. What would change in that is that at 
some point it would be under the services to then prioritize 
and fund and deliver the assets within their service.
    And that is my one concern, is that the way that we develop 
EDI today, between I and the Department, is that we lay out the 
priorities from a commander's perspective--EUCOM--and that is a 
bit different than a service perspective, because I am looking 
at the synchronization and the combination of all the services 
and resources to get the best benefit, in terms of deterrence 
and defense.
    And so, as we move to the budget, I would like some means 
within the planning to protect that prioritization by the 
combatant commander.
    Mr. Gallego. In terms of the message it would send to our 
allies if they--if we actually went that route, in your 
opinion?
    General Scaparrotti. Well, I--you know, I think that the 
message would be that we are committed to funding our needs, 
and particularly those needs that have to do with the Euro-
Atlantic, where we are a member of NATO and we have partners in 
Europe as a part of the base budget. But again, the key there 
would be that they see the investment that is also inherent in 
our alliance activity and capabilities.
    Mr. Gallego. Excellent. I would like to talk, moving on, 
into--especially what we recently just saw occur in England. 
Russia will likely never, in my opinion, present a clear 
violation of NATO's Article 5, but they will always, you know, 
try to be like the petulant teenager that they are, and just 
kind of testing and probing below actually crossing the line.
    So what are we doing with our NATO members and with our 
non-NATO partners like Finland and Sweden to kind of build up 
the resilience of the alliance, of their capabilities, of their 
domestic capabilities, and to prevent Russian incursion that--
the pre-Russian incursion that happens when there--such 
activities around hybrid warfare, things like that. So the 
overall steps--I would say, I guess, the inoculation that we 
should be doing to stop Russia incursion or influence on our 
allies and near allies.
    General Scaparrotti. So there is a number of activities 
ongoing in Europe right now that are United States to partners 
and United States within the alliance.
    I would first point out with any alliance that, you know, 
we have noted that cyber is a domain, and we are now working as 
a domain, both at a diplomatic level, as well as the military 
aspects of that. And we have established cyber centers, we are 
beginning to take--we are beginning to conduct activities in 
that regard, and that touches all 29 nations, but it also 
touches the partners of NATO, which there are about 40.
    Within NATO you have got a hybrid center of excellence, we 
have got a cyber center of excellence among different nations. 
Those also are in place to help assess the environment, 
determine best responses, educate the other nations' 
capabilities in this, and then help them in applying it. And 
within NATO all of our actions are to help us do this in a 
synchronized pattern.
    So, while there is much work to do, there is a lot of good 
work going on right now in each of these areas that shares 
information, shares best practices, shares information so that 
we are fully aware of what is going on in our environment. And 
so, you know, I am positive about this. But there is a lot of 
work that needs to be done.
    Mr. Gallego. I yield back.
    The Chairman. Mr. Lamborn.
    Mr. Lamborn. Thank you, Mr. Chairman.
    Thank you, General, for the great work that you are doing. 
I had to be in another committee, so please excuse me if you 
already addressed this question. But feel free to amplify. I 
would like to ask you about Iran.
    As North Korea continues to expand its ballistic missile 
and nuclear capabilities, it has also been testing newly 
developed systems, which I think is a real problem. While the 
United States has arguably shifted focus in the last 2 to 5 
years to address the threats from North Korea, how would you 
assess our ability to counter an Iranian threat to U.S. 
interests in EUCOM, including the ability to protect our 
deployed forces in your area of responsibility?
    General Scaparrotti. Sir, I would assess, you know, our 
capabilities as good. As you know, our defense system, 
particularly our air and missile defense system, has as a focus 
Iran, as well.
    We do in EUCOM watch closely Iranian activity, and 
particularly their malign influence, as Israel is a part of 
EUCOM. And Iran is--they consider Iran an existential threat to 
them. And I--one of my responsibilities is to support the 
defense of Israel. So we work closely with Israel, and we keep 
a very close eye on Iran's capabilities and activities, in 
close coordination with CENTCOM [U.S. Central Command].
    Mr. Lamborn. Thank you. And as kind of a follow-on to that, 
we have Aegis Ashore sites in Romania and Poland. What are we 
doing to protect them from cruise missile or other kinds of 
attacks?
    General Scaparrotti. Sir, that is addressed among a layered 
defensive system--I will leave it at that--and steps that we 
are taking in that regard. And I would prefer to give you that 
response more fully than that, you know, in a classified 
document, if I could.
    Mr. Lamborn. Okay. That would certainly work.
    And lastly, on Asian modernizations, give us an update on 
the Russian military modernization programs. And, you know, 
General--excuse me--President Putin talked about these, I 
think, kind of far-fetched nuclear-tipped torpedoes, nuclear-
powered cruise missiles, things like that. But what are they 
realistically doing that you are concerned about?
    General Scaparrotti. Well, they--you know, they are 
modernizing their force. So let us go to the--you know, the 
conventional and nuclear force first. And just generally, in 
this environment, I can talk to you--I can provide you a more 
in-depth response in a classified document.
    But you know, it is well known that they are modernizing 
their conventional force. They are primarily doing that through 
a respect of--with the weapons systems that they put on them, 
as well as the missiles that they have developed to give them 
greater range, greater precision. And in most of these systems 
that they employ, they can be either conventional or nuclear.
    So in many ways, they are improving the ships that they 
have in the maritime, they are improving the planes that they 
have, their bombers, and their submarines, with advanced 
systems that we need to--you know, we need to pace and be able 
to deal with. They are improving their nuclear capability 
across all their systems, and modernizing those. That is why 
NPR [Nuclear Posture Review] is so important for us to maintain 
our nuclear deterrent across the range of scenarios that they 
might present.
    The last thing I would note is that, you know, they are 
working hard to modernize both their C4 systems--you know, 
their command, control, communications [and computers]--and 
also capabilities in space. And then hypersonics, as well.
    Mr. Lamborn. When it comes to the Nuclear Posture Review, I 
believe that it is a good thing that it is being proposed that 
we have more options, like low-yield weapons or sea-launched 
intermediate cruise missiles. Some people think that we should 
have fewer options, just as a philosophical matter. Where do 
you come down on the number of options that we should or should 
not have?
    General Scaparrotti. Oh, I support the Nuclear Posture 
Review that we should close any gaps, that we should have a 
deterrent that can respond across the spectrum of scenarios 
that they might present us, or an adversary might present us. I 
think this design is a tailorable force that does just that, 
and it does not lower the threshold. Actually, by closing those 
gaps and ensuring they understand that we have a deterrent, a 
capable posture, that it raises that, and it raises that 
threshold, in my view.
    Mr. Lamborn. Thank you so much. I yield back, Mr. Chairman.
    The Chairman. Mr. Panetta.
    Mr. Panetta. Thank you, Mr. Chairman.
    General, good morning, thank you for being here. Thank you 
for your testimony. As you can tell by most of the questioning, 
hybrid warfare is a concern as to what is going on, obviously, 
with Russia and what they are doing.
    When you look at Article 5, though--and I--you know, I just 
looked it up, to be frank--you know, it says ``armed attack.'' 
Each goes through that. In your opinion, do you think Article 5 
needs to be updated in order to deal with this hybrid warfare, 
so that there can be more of a joint response?
    General Scaparrotti. Well, you know, I would--I am not 
going to try and get in--that is really the North Atlantic 
Council's job, there. But, you know, I talk to them. I think 
they are actually working on the structures and the definitions 
that inform that treaty. And I am confident that they are 
wrestling with the hard question that you are talking about. 
Whether or not it is a change to the--literally to the wording 
of Article 5, or whether it is the--you know, the process and 
the understandings that they develop short of that, I will let 
them be the determinant of that.
    Mr. Panetta. Do you feel it limits you now, in its current 
state, in regards to your response to this hybrid warfare?
    General Scaparrotti. No, I do not think it limits me. I 
think there is an understanding of the basis, the spirit of 
Article 5, and an understanding that the character of warfare 
is changing.
    Mr. Panetta. Fair enough.
    General Scaparrotti. Yes.
    Mr. Panetta. Fair enough. Great. Thank you. Pivoting, 
moving up north in regards to the Arctic, can you speak to the 
Russian buildup up there, and our response?
    General Scaparrotti. Clearly, they are modernizing some of 
their older bases there, they are building some new ones. They 
are placing radar systems, et cetera, in place, and they have 
moved air defense systems back and forth, as a part of their 
exercises, as well. They are developing capabilities, in terms 
of ships capable to operate in that environment in numbers that 
will outpace us, if we are not diligent here.
    And so, in the instate, you know, in several years they 
probably would be in a position, given their modernization, 
that they could, if they chose to, control the Northern Sea 
Route. They state their intent is for safety, security, 
economy, rescue of those at sea, et cetera. But I think we have 
to pay attention to what we are seeing there.
    Mr. Panetta. And we are paying attention, clearly.
    General Scaparrotti. We are. But we need to--we also need 
to look with our allies and across our government at what 
assets and capabilities we should have in place, given their 
modernization.
    Mr. Panetta. And beyond looking, are we actually doing 
something?
    General Scaparrotti. We are.
    Mr. Panetta. Okay, all right. Thank you, I appreciate it.
    I yield back.
    The Chairman. Ms. Stefanik.
    Ms. Stefanik. Thank you, Mr. Chairman.
    Great to see you again, General Scaparrotti. You stated 
recently that you do not believe that the United States has an 
effective and unified approach to dealing with Russia's cyber 
threat: specifically, ``I don't believe there is an effective 
unification across the interagency with the energy and the 
focus that we could attain.'' What are we doing to address 
this? And what specifically do we need to do?
    General Scaparrotti. Well, I will speak, you know, from my 
point of view here, as a EUCOM commander.
    What we are doing is we are working with the Russian 
Information Group, which is the RIG, commonly called. It is an 
interagency board. I co-chair that with the Under Secretary of 
State. That gives us a platform to bring together the 
interagency in a whole-of-government approach and response to 
activity below the level of warfare, for instance.
    The GEC is under State, which is the Global----
    Ms. Stefanik. Engagement Center.
    General Scaparrotti [continuing]. I think is probably, at 
least in my view, the central point now within the government--
State being responsible for particularly information countering 
disinformation.
    So that is what we are doing. And the GEC has been--
received additional funding and guidance.
    My point that you quoted is I think we have the structure 
that we could expand on, but we are not--we just do not have 
the focus and the energy that I think that we are capable of, 
or we should put into this in order to deter this 
disinformation campaign that is going on.
    Ms. Stefanik. So I agree with you, but I want to hear 
specifically what steps we need to take to ensure that we have 
the focus and the energy.
    And I know I have concerns with the lack of implementation 
of the appropriations, when it comes to the GEC. But I want to 
hear from you specifically what steps we need to take so a year 
from now the answer to this question is not the same.
    General Scaparrotti. Okay, I am going to give you my 
response. I am not in State. This is really a question that, 
you know, frankly--I will admit here publicly that this is 
their business. But from someone that takes part in this, as a 
part of DOD, you know, I personally believe that, you know, 
greater clarity in role, greater direction across the 
interagency with respect to how this will work as a--you know, 
as the central agency for information, and perhaps resources in 
order to develop the energy and the focus that I talked about.
    I would prefer not to go beyond that, because, again, I 
am--you know, this is really a question for State. But I think, 
you know, from my point of view in working with them, they are 
good people, we are making good headway. But we could do more.
    Ms. Stefanik. You and I have discussed--and I think it 
would be worthy for the committee to hear your assessment. Are 
we seeing new trends--and the context of this question comes 
from we are heading into the midterm elections. Are we seeing 
new trends when it comes to Russia's use of disinformation 
among our allies?
    Obviously, we saw that leading up to the French elections 
and the German elections. And I think both countries were 
pretty capable, in terms of how they ensured that this 
disinformation campaign from Russia did not meddle with their 
electoral process.
    What can we learn from that? What trends do we need to look 
for, as we head to the midterms?
    General Scaparrotti. Well, I think the one that is apparent 
is just use of social media and using factories in order to get 
out a lot of volume with disruptive messaging. And that was 
seen here, it was seen in Europe in the elections there, as 
well.
    But that is one of the trends that has been identified. And 
as other nations, as we progress through some of the elections 
in Europe, they were better able to handle because they 
recognized this may be coming about. And they have learned how 
to begin to counter that, how to be prepared to counter it, et 
cetera. So there is progress being made. But that is one of 
those that I would note.
    And I think, as an alliance, you know, we have assisted 
with their elections, et cetera, and they have exchanged 
information, as well, from what they have learned. And my 
general view is that we have been better able--at least in 
Europe--to deal with this, as this has progressed.
    Ms. Stefanik. And my last question, if I have time, is who, 
from your perspective, has the central responsibility when it 
comes to countering propaganda, whether it is from Russia or, 
frankly, other adversaries?
    General Scaparrotti. My understanding, it is State.
    Ms. Stefanik. Okay. And are there country-specific 
strategies that are being developed that work effectively with 
DOD counterparts?
    General Scaparrotti. Yes. What we have done within the 
information group and with the GEC and across the interagency 
is we have developed nations that are vulnerable or under 
threat, ones that we thought we could have the best benefit. 
And from a U.S. perspective now, we have gone to the ambassador 
in our country team and said, ``What are your objectives, and 
how do we support those?''
    Ms. Stefanik. My time has expired.
    General Scaparrotti. So we are focusing on that.
    Ms. Stefanik. Thank you.
    The Chairman. Mr. Langevin.
    Mr. Langevin. Thank you, Mr. Chairman.
    General, good to see you again, and thank you for your 
service.
    So I know that my colleague just talked about the Global 
Engagement Center, but I want to address it as well, because I 
think it is an important topic. From its inception, I have 
certainly believed that it has a critical role to play when it 
comes to countering the messages perpetuated by our 
adversaries, both terrorist organizations and nation-states.
    I am certainly glad that the State Department has finally 
accepted the allocated transfer of funds from the Department of 
Defense to assist in the effort, and--but I find it somewhat 
problematic that there still exists a lack of leadership within 
the State Department, from the bottom all the way to the top, 
as we have seen within the past few days, to leverage its 
capabilities to disrupt destabilization campaigns aimed at the 
United States and our allies.
    So, can you answer for me and touch on the topic a little 
more how are you working with the Global Engagement Center, and 
how can we better use its capabilities?
    General Scaparrotti. Well, I can comment on our 
relationship. It is a very good one, and we work with them 
consistently. They are a member of the RIG, which I talked 
about. And through that, that is the direct connection with the 
work that the RIG does. But even on a daily basis we know who 
to go to with respect to the information operations we in EUCOM 
are doing, or the things that we see. So it is a--you know, it 
is a very good relationship.
    My comments have been directed on I think we need a more 
robust effort within the GEC. And in terms of how to do that, 
that is really State's portfolio.
    Mr. Langevin. Okay. So you noted in your testimony that 
Russia is advancing its indirect and asymmetric capabilities in 
accordance with its concept of warfare, commonly referred to as 
the Gerasimov Doctrine. The concept here states that non-
military means have grown or surpassed the use of force to 
achieve political or strategic goals, non-military factors 
outweigh military factors in that doctrine by a ratio of 4 to 
1.
    Do you feel comfortable that the non-military assets of 
U.S. national power are being utilized effectively to 
adequately counter the threats posed by Russia? And can you 
describe the extent of your relationship with those in the 
United States responsible for the coordinating of the non-
military elements with you and your staff?
    General Scaparrotti. Well, first of all, you know, I will 
underscore that Russia has a doctrine that, in my view, sees 
these activities below the level of conflict as a part of the 
full spectrum, with an intent that, if they could undermine a 
target country through these types of means, political 
destabilization, et cetera, never having to use a military 
force, that is their objective.
    We work every day across the interagency. I have 
interagency representatives that are talented and capable and 
working hard with us to ensure that what we do is an 
interagency effort, a whole-of-government effort.
    And so, I do not mean to imply that we do not work that 
way, we do. But that is--you know, that is hard government 
work, because most of our agencies, to include DOD, are formed 
and focused on doing what we do best. And DOD is the same way. 
So you have got to break some cultural barriers here and work 
on crossed interests.
    We can do this. We have done it in the past. So I would say 
we continue to do what we have set out to do, as a government. 
We continue to reinforce the capabilities that allow us to 
approach these things as an interagency.
    Mr. Langevin. So let me follow up with this. The recently 
published National Defense Strategy states that we are 
competing with Russia. And I have a feeling that Russia may 
think it is already in a type of informational or political war 
with the United States.
    As a part of the Gerasimov Doctrine, information operations 
are presented as an--as integral to all six main phases of 
Russian conflict development, the only non-military measure 
spanning the entire spectrum. But as Europe is absent active 
armed conflict, we lack certain authorities to conduct our own 
information operations.
    So how are you countering Russian disinformation in Europe 
without the broader authorities granted in larger operations, 
or execute orders understanding you likely cannot get into 
details about how you feel we are adequately challenging Russia 
in this space?
    General Scaparrotti. I will briefly answer that, just by 
saying that we and EUCOM engage through NATO and EU, as well as 
our partners and individual countries in countering the Russian 
message. All of this is truthful print. Much of it can be done 
through public affairs.
    And then, in other ways, we have military information 
support teams that we provide to specific countries. And all of 
this is in support of the embassy and their message, as well, 
as well as foreign countries. So we work directly with some of 
these foreign countries and what they see, and how best to 
counter this disinformation. So I would leave it at that.
    And, well, the last thing is you mentioned authorities. I 
have asked for authorities with respect to information 
operations, et cetera. And those that I have requested I have 
been granted. And in this forum I will just leave it at that. 
But I do want you to know that where I have asked for specific 
authorities to this point, I have received what I have asked 
for.
    Mr. Langevin. Thank you, Mr. Chairman. And thank you for 
the latitude, Mr. Chairman.
    The Chairman. Mr. Hice.
    Mr. Hice. Thank you, Mr. Chairman.
    Is EUCOM prepared for the United States to move its embassy 
in Israel to Jerusalem?
    General Scaparrotti. Say again, sir. I am sorry, I--is 
EUCOM----
    Mr. Hice. Are we prepared, do you believe, to move our 
embassy to Jerusalem?
    General Scaparrotti. Today we are preparing to do that. And 
again, this should be a question that goes to State first, as 
the lead in that. I was just there, so I am aware of the 
planning that is going on, and I would respectfully go to them 
for the question of the preparation.
    Mr. Hice. Okay, fair enough with that. Going back, then, to 
Russia and your understanding, what are Russia's goals in the 
Baltic Seas?
    General Scaparrotti. Well, I think it is consistent with 
other places, and that is that they establish themself as a 
respected global power; they undermine the democratic values 
and the values of the West; they attain, to the extent that 
they can, some privileged influence over the nations that 
border them, particularly the ones who were in the former 
Soviet Union. And even in the Baltics I think they have that 
similar objective.
    Mr. Hice. Okay. Of those type of things, what would you 
consider in--as far as their influence in that region, what 
troubles you most?
    General Scaparrotti. Well, I think there is--you know, the 
presence of their, again, disinformation campaign, some 
political provocation. You know, we see where they purchase 
social media or TV stations, et cetera.
    And in a couple of the Baltic countries you have a Russian 
population that, obviously, they target their message to and 
can share, through language. It is a--you know, that population 
is harder to penetrate by the government itself in some cases. 
So it is a--you know, it is a population that is easier for 
Russia to influence. And, of course, they target that and take 
advantage of it.
    Mr. Hice. What tools can we utilize to help aid our allies 
over there against Russian operations and cyber operations, 
that type of thing?
    General Scaparrotti. Very close working relationship across 
our government, not simply in the military realm, but through 
the other forms of government in order to help them assess, 
respond to, and understand the environment, and also learn from 
them. Estonia Cyber Center is an excellent center. The Baltic 
nations, since we are talking about them in particular, you 
know, they have an understanding of Russia and that threat in 
ways that we do not. So we rely on them.
    So it is a team effort here, and I think it works both 
ways, and that is the way we approach it.
    Mr. Hice. Do you believe it is working well, those 
communication lines? Are you pleased?
    General Scaparrotti. I am, yes.
    Mr. Hice. Okay. How, then, along those lines, how does 
EUCOM work with other U.S. agencies to utilize a whole-of-
government approach?
    General Scaparrotti. Well----
    Mr. Hice. Against Russia, in particular.
    General Scaparrotti. Yes, sir. Well, through--in all of our 
challenges in EUCOM we first approach it from a whole-of-
government approach.
    And just to set the stage, my civilian deputy is an 
experienced, you know, foreign diplomat. He just--was just last 
the U.S. ambassador to Italy, Phil Reeker, Ambassador Phil 
Reeker.
    Mr. Hice. Right.
    General Scaparrotti. So that tells you something right 
there. And he gives us a direct connection into the 
interagencies, and particularly State.
    And then we have a number of interagency--Treasury, USAID 
[U.S. Agency for International Development], FBI [Federal 
Bureau of Investigation]--we have a number of interagency 
persons that are a part of my staff that work day to day. So 
our counter-transnational threat cell, for instance, it is a 
lot more civilian workforce than it is anybody in a uniform, as 
an example. And that is how we pull them in and we make sure we 
have their expertise in this.
    Mr. Hice. Very good. Well, thank you for all you do. And we 
appreciate it very much.
    And, Mr. Chairman, I yield back.
    The Chairman. Mr. O'Halleran.
    Mr. O'Halleran. Thank you, Mr. Chairman.
    General, thank you for being here today, thank you for your 
service to our country. I want to go back a little bit to the 2 
percent issue in Europe.
    I guess what I heard you say is that it is going to be--
Russia, over the next 5 years, is going to eventually have some 
issues with continuing to fund their military. You had 
mentioned it is going to take us about 30 years to get where 
the plan wants to be. And I was wondering. Does 2 percent get 
our European allies to where they need to be? And what is the 
real number to get them to where they need to be?
    General Scaparrotti. Well, sir, I have not looked at it in 
the--in, you know, in that depth, in terms of a real number. It 
would take an assessment of each and every country to do that. 
I would say that, you know, an investment at 2 percent will 
make a significant difference in these other--in the other 
nations.
    And the way that we make sure that we have what we need is, 
within NATO, we do a capabilities assessment. We just completed 
this cycle. And then we determine what the requirements are in 
NATO to have an effective deterrence and defense in the Euro-
Atlantic. And we assign each of the nations capability targets 
that they have to meet as a part of that 2 percent and 20 
percent. And through that, we can provide the force in NATO 
that we need. We know that now. We just have to ensure that 
they make those investments and the capabilities that have been 
outlined.
    If they want to invest in other areas in their military, 
that is fine, but they need to meet those capabilities first, 
that we have a synchronized and coherent force for the 
deterrence and defense of the Euro-Atlantic.
    Mr. O'Halleran. I thank you, General. The sustainability of 
that effort, though, as we saw in the last economic downturn 
here in the United States and around the world, plays a big 
role in that, I would imagine. I do not know if you have 
assessed to that level yet, but these economic cycles are 
something that is part of our history. They will occur again. 
And a lot of these countries were hit pretty hard during the 
last downturn.
    So how much time is it going to take some of these 
countries to get up to speed at the 2 percent? I think you 
mentioned 15 are not there yet. How are we going to get--how 
are they going to get there?
    General Scaparrotti. Well, I think if you--you know, and 
this--I could respond to this in a written form in more detail.
    But generally, you know, we have taken a look at--NATO has 
taken a look at the countries and, you know, there is a 
grouping of, say, five to seven that, given their financial 
plan at present and the--in some cases, if they are in EU, the 
standards that they have to meet with respect to debt, et 
cetera, they will have a very difficult time meeting the 2024 2 
percent if they adhere to both EU and NATO requirements. So 
there is a group of countries that, with analysis, you know 
will have a more difficult time.
    Mr. O'Halleran. The--one of the issues that came up was how 
we can address some of our issues with them and with their 
ability to impact citizens in other countries, how we can do it 
to them. And you mentioned something about--that we have an 
advantage because of people's representation of us as having a 
truthful media.
    And here, internally, in the United States, we have this 
ongoing division over the media here. How is--how do we let 
people know over there that we are truthful, when within our 
country we are having this struggle on the truthfulness of the 
media?
    General Scaparrotti. That is a difficult question to 
answer. I would say that this--the issue of truth in media is 
not just the United States. It is a global issue now. With the 
development of our social media and the internet, et cetera, we 
have lost what we once had when we had print media largely that 
had editors that had editorial standards, et cetera. There is 
much of this that has no discipline within it.
    I think that is something that, internationally, we need to 
come to grips with and determine how we are going to begin to 
discipline that. And it is particularly important for 
democracies because of the role that, you know, truthful media 
and journalism plays in a vibrant democracy.
    Mr. O'Halleran. Thank you, General, and I yield.
    The Chairman. Dr. Wenstrup.
    Dr. Wenstrup. Thank you, Mr. Chairman.
    Thank you, General, for being here. I have kind of a 
general question concerning Eastern Europe, if you will. And I 
do not expect a deep-dive answer, but you mentioned a team 
approach to nations in Europe. And from your perspective, what 
are the Eastern European nations, for example, wanting and 
needing from--say, if we go down the list of the DIME, right--
what do they want diplomatically, militarily, information 
sharing, economically? What kind of things are they wanting? 
What can we provide? And I know that is a pretty broad 
question.
    General Scaparrotti. Yes. And frankly, I need to probably 
focus most on the military aspect of that.
    Dr. Wenstrup. Sure.
    General Scaparrotti. You know, the first thing is that they 
want a close partnership. I am speaking as a EUCOM commander 
now. They want a close partnership with the United States, 
because they recognize our leadership, they recognize our 
capabilities. They want to have a close partnership so they can 
also develop their capabilities.
    Dr. Wenstrup. Militarily and otherwise, or----
    General Scaparrotti. Diplomatically, et cetera. I mean they 
are--those nations are great allies. They are small, but they 
are working very hard. And you will note that they are the ones 
that are above 2 percent very quickly. So they are also 
investing in the capabilities that they believe they need to 
nest with ours. That is what we need to continue to do, and we 
need to continue to help them in that regard.
    And I think also our presence there reinforces their 
population's confidence in the West, and their decision to be 
NATO members in some cases, or to align with the West, 
generally.
    Dr. Wenstrup. Obviously, all those things intertwine with 
our success there, and when I talk about economics and things 
like that. And I have always had a concern of the dependency 
upon Russia for, say, natural gas, et cetera. And the stronger 
their economy is, the better our military relationship can be, 
et cetera, et cetera.
    Are there things, from where you sit, that you feel like 
you are hampered if we only did more economically, like tried 
to alleviate some of that dependency on Russia in some way?
    General Scaparrotti. Yes, I think we are working toward 
relieving some of the dependency on Russia. And I know those 
countries are, as well.
    So, particularly in liquified natural gas, there is 
facilities being built that will allow us to transport that. 
And frankly, I think we should continue to do that. Because, as 
you know, Russia uses energy to coerce and compel at times. 
Thank you.
    Dr. Wenstrup. Thank you. I appreciate it, General. I yield 
back.
    The Chairman. Mr. Khanna.
    Mr. Khanna. Thank you, Mr. Chairman.
    General, thank you for your service. In discussing Ukraine, 
I think it is important to look at some of the historical 
context. When Secretary Baker met with Shevardnadze and 
Gorbachev there was a discussion about the expansion of NATO. 
Our country made no formal commitments to Gorbachev, as Putin 
claims, but Gorbachev recently did say that the spirit of the 
conversations very much suggested that we would not expand 
NATO.
    And when Yanukovych came to power in Ukraine and wanted to 
do business with the European Union, the Russians asked the 
United States whether we would be okay with a tri-patriot 
economic agreement, where Europe would do business with 
Yanukovych and with Russia. The European Union rejected that.
    Then, when Yanukovych was ousted, Yanukovych came to the 
United States and said, ``Why don't we call early elections and 
have a coalition,'' it is unclear whether we worked 
diplomatically for that. We then supported the regime change 
against Yanukovych.
    So I guess my first question in sort of three parts is do 
you think we made a strategic mistake by insisting that Ukraine 
join NATO? Do you believe we made a mistake by recognizing the 
coup against Yanukovych? And do you think we made a mistake by 
not having a tri-patriot agreement with Russia and Yanukovych 
on the economic agreement?
    General Scaparrotti. Yes, I will be honest. I have not 
looked at that in enough detail in the specific instances that 
you pointed out to give you an answer here. If you would like, 
I will give you one as a written statement after the hearing 
here.
    Mr. Khanna. I would appreciate that. More broadly--and this 
goes to your expertise--I mean, one of the things that has 
served us really well in this Nation is the Monroe Doctrine 
made by John Quincy Adams. And we believe that no one should 
interfere in our region.
    Assume for a second that Russia is acting in a similar 
strategic interest. Do you really believe, even if we have arms 
going to Ukraine of 50 million, 200 million, like the President 
wants, that we could ever out-compete the Russians in Ukraine? 
Would they not just increase their arms? Do they not have far 
more of a strategic interest to fight us than we do in Ukraine?
    General Scaparrotti. If one looks at proximity, et cetera, 
that is an advantage for Russia, and it is an advantage 
militarily, as you suggest.
    But what I go back to is that what we believe as a 
fundamental principle is that people have a right to determine 
their own government and how that government is led, whether it 
is a democracy, or what type of democracy it might be. And I 
think that is the principle we fundamentally support here.
    Mr. Khanna. General, I agree with you. And John Quincy 
Adams had a very famous passage saying the United States 
supports the self-determination of people around the world, and 
we should extend our prayers and our hopes, but we should not 
be going out for monsters to destroy, because that is not in 
the United States strategic interest.
    What do you think is our national security strategic 
interest? What is being served by putting more weapons in 
Ukraine? I mean how does that make the United States more 
secure? How does it make constituents in my district more 
secure?
    General Scaparrotti. The United States is--has come to the 
assistance of a people and a nation that seeks to establish 
themselves with the West in a democratic way and make reforms 
to do that. And we have committed to that.
    I think it is important the United States be seen as a good 
ally in that. And of course, where that takes us here in the 
future will be set against, you know, our vital interest in 
this country, as we move forward. But I think it is important 
that we support those who seek democratic values and ways in 
the world, as well. Otherwise, we forfeit that movement to 
others like Russia, who would like to undermine and establish a 
world order that is counter to our interest and, as we have 
seen in past history, typically leads to conflict.
    Mr. Khanna. I respect your perspective. I would just say 
that no one disagrees that we should recognize self-
determination and human rights. The question is just 
strategically, militarily, whether that is the most in our 
national interest.
    My final question is do you really think being bogged down 
there--is Russia really our most strategic competitor, or is it 
China? And does putting resources here hurt our ability against 
China or against fighting the war on terrorism?
    General Scaparrotti. Well, sir, I would just say I do not 
know that we are bogged down there. And I would remind you that 
we are also not fighting. They are fighting for their own 
sovereignty. We are providing capability, capacity building, 
and reform to their government.
    Russia and China are both competitors. I particularly 
believe that, you know, in the shorter term here, Russia is an 
immediate threat at this point. They are a more consistent 
threat. And maybe in the longer term, China. But that is a 
debate that many will have. But I think we need to pay 
attention to both.
    The Chairman. Mr. Banks.
    Mr. Banks. Thank you, Mr. Chairman. Thank you, General, for 
being here.
    I wonder if, first of all, if you have any thoughts or if 
you could explain at all why Macedonia is having such a hard 
time in their hopes of being admitted into NATO. And would you 
agree that, if they are admitted into NATO, they could be a 
somewhat important ally to the United States and our efforts?
    General Scaparrotti. Yes, I would probably refer you to 
State on that, in terms of the detail of this. They are--they 
would like to seek a means to enter NATO. I have talked to 
their minister of defense about that. And I think it is a--you 
know, it is a matter, foremost, of being able to establish the 
ability to meet the MAP [Membership Action Plan], or the 
accession principles that you have within NATO to do that, and 
you know, being confident in showing that there is a confident 
means to do that.
    Mr. Banks. I appreciate that. My next question: as you 
know, the Nunn-Lugar Cooperative Threat Reduction [CTR] program 
has been a key nonproliferation enabler of EUCOM and the world 
for over 25 years. As part of your overall security cooperation 
efforts, CTR has been fundamental to greatly reducing the 
threat of WMD [weapons of mass destruction] proliferation.
    However, we continue to see WMD proliferation threat grow 
through terrorist networks and state sponsors. Recent efforts 
in Moldova and Ukraine highlight the security challenges the 
European grey zone nations face.
    So, with that, can you comment at all on the success of 
CTR? And maybe any CTR efforts that have been effective in your 
AOR [area of responsibility], or ways that we, as Congress, 
might change a program that is now 25 years old to confront the 
threats that we face in the future?
    General Scaparrotti. Yes, I would like to take that for a 
response, as well, to you. To get into the detail of how we 
might change it, you know, we addressed this and we work within 
NATO--or within EUCOM, with NATO, with our partners to counter 
proliferation of transnational threats. That cell that I noted 
before, the transnational threat cell, has that as one of its 
fundamental tasks.
    I think we are having an effect. I think it is positive. 
But I think today, more so than ever, we probably need to be 
more focused on this because, you know, we have non-state 
actors today that now have the funding and the capability to 
attain some of these weapons systems, whereas before it was 
fundamentally a nation-state capability that was passing those. 
So terrorists, violent extremist organizations.
    So I think it is important that we maintain this focus, and 
that we work, again, you know, with our partners and as an 
alliance, to do this.
    Mr. Banks. And my last question. In your written testimony 
you talked about the growing maritime threat in your AOR. And I 
wonder if you could maybe comment more extensively about that. 
With the resurgent Russia--maybe comment specifically related 
to the antisubmarine capabilities under your review.
    General Scaparrotti. Yes, sir. If you wanted detail on 
that, I would prefer to do that in a classified document, as 
well.
    Just generally, the activity level of their maritime forces 
is up in Europe. They are active now, coming out of the high 
north in their northern fleet into the Mediterranean, for 
instance. That is--that has not been--while not alarming, it is 
not necessarily something they could not do, it is just not 
something they have normally done in, you know, say, recent 
history.
    So they are deploying more, and they are deploying at a 
higher rate. The forces that they are deploying are being 
modernized, primarily with weapons systems. So, you know, most 
of their ships now, you know, have a Kalibr [cruise missile] 
system on them. It is both conventional and can be nuclear, if 
they choose to do so. It is a very good system, provides reach 
and precision. And, of course, wherever they have a ship, 
whether it is undersea or on the surface, many of their ships 
now have the Kalibr system on them.
    Mr. Banks. I appreciate that. Thanks for your leadership.
    I yield back.
    The Chairman. Mr. Moulton.
    Mr. Moulton. Thank you, Mr. Chairman.
    General, thank you very much for holding the line for us in 
Europe. I appreciate your service.
    I served under General Jim Mattis, current Secretary of 
Defense, and our division motto at the time was ``No Better 
Friend, No Worse Enemy.'' And I often found that it was the 
first half of that that was sometimes harder to maintain. 
People understood the Marines were a tough enemy. But they were 
not always sure if they could trust us.
    How do you make our Eastern European allies trust us in the 
fight against Russia when we are not really willing to stand up 
to Russia right here at home? This is a consistent theme that I 
have heard as I traveled around the globe, is that a lot of our 
allies right now are just not sure whether they can trust 
America. So give us a window into how you fight this fight on 
the day-to-day in Europe.
    General Scaparrotti. Well, first of all, I will tell you I 
do not see that issue, particularly in the East within NATO, in 
terms of their--any distrust.
    The first way that I do it is look at what we are doing. We 
have--we are rotating an----
    Mr. Moulton. So you do not think that when the President 
comes out against NATO and says that we might not even be a 
part of NATO, maybe should not even be a part of NATO, that 
does not contribute to any distrust?
    General Scaparrotti. The President has stated support for 
Article 5 and full support for NATO. And in this time we have 
deployed a lot of force in this past year to Europe on behalf 
of NATO.
    So, you know, I--what I am trying to say is that, you know, 
what I point to is what are we doing. EDI, which Congress has 
budgeted, for instance, is a substantial investment. And----
    Mr. Moulton. Well, let's----
    General Scaparrotti. And our allies recognize that.
    Mr. Moulton. So, General, let's talk about that for a 
second. The EDI--and we have--I have witnessed this in Eastern 
Europe myself--seems to be very heavily focused on conventional 
forces, which is not the way that Russia is attacking us. I 
mean Russia is attacking our Eastern European allies through 
the internet, through partisans, by undermining their political 
process, by sowing disinformation, as you earlier described.
    It does not seem like our effort is calibrated to really 
meet that threat at all. It certainly was not when I visited 
there in 2015, and I know that we on the committee have tried 
to make some modifications. I am not sure that we have gone far 
enough. What could we do to improve our ability to stand up to 
the type of warfare that Russia is actually exercising today?
    General Scaparrotti. First of all, sir, I would say that, 
you know, we need to have all of that. So we do need that 
conventional capability in place, as a deterrent. And it is an 
absolute signal to them of our commitment to Article 5 and our 
commitment to NATO and them, as partners.
    Many of the things that we are doing is what we need to 
continue to do. We are providing those nations, particularly in 
the East, with direct military information support, coupled 
with our embassies working with them, as well. The nations 
themselves work with us closely, in terms of their public 
affairs messaging, et cetera. That is all a part of this. And 
EDI does fund some of the information operations that I do in 
EUCOM, as well.
    Mr. Moulton. What percentage of the budget for EDI goes to 
those types of activities?
    General Scaparrotti. A very small part of that. I can give 
it to you if I sit down and figure it out. But it is a small 
part of that.
    I would first say, though, that, you know, information 
operations is not that expensive.
    Mr. Moulton. What percentage of the attacks that you see, 
whether they be hybrid-type attacks, the disinformation 
campaigns, the attacks from Russia, what percentage are these 
hybrid types of attacks versus conventional attacks?
    General Scaparrotti. Well, we do not--you know, in terms of 
attacks within NATO, I mean, most of this activity is below the 
level of conflict.
    Mr. Moulton. Right.
    General Scaparrotti. There are----
    Mr. Moulton. I mean they are not rolling any tanks into 
Eastern Europe.
    General Scaparrotti. Well, no. And--but they did annex, you 
know, portions of the Ukraine, for instance, and Georgia in 
2008.
    But you are correct. I mean today's activity is purposely 
below the level of conflict on the Russians' part.
    Mr. Moulton. Are there other things that we should be doing 
on the committee to better meet this threat? It sounds to me 
like we could better apportion the budget. Are there other 
things that we should reinforce, or ways that we could give 
more confidence to our allies that we will help them stand up 
to this, to this serious threat?
    General Scaparrotti. Yes. Well, you know, I would applaud 
Members of Congress for their trips to Europe, for instance, 
and to see our allies, like the one you took in 2015. Those 
visits and open discussion with them is very important, and is 
a direct demonstration of the United States interest in, you 
know, in their security. So I would encourage those, as well.
    Secondly, continue to do what you are doing today, and that 
is to have a good assessment of our security needs and what 
should be funded and how you fund them. This budget has been 
very important to enabling me to do what I do with our allies 
and the security of the Euro-Atlantic. You need to continue 
that.
    Towards the budgeting, I would say this again. Information 
operations is not overly expensive, when compared to, for 
instance, conventional force structure, rotational forces, et 
cetera. And, for my part, my request through EDI is structured 
on what I believe we most need for deterrence today. And so I 
take into account--is at least my portion of this, as I put it 
forward to DOD, the percentages of what is required and best 
used for a coherent defense. And I take that deliberately as I 
present this--my portion of that budget to Department of 
Defense.
    Mr. Moulton. Thank you, General, and thank you, Mr. 
Chairman.
    General Scaparrotti. Thank you.
    The Chairman. Mr. Garamendi.
    Mr. Garamendi. General, thank you very much for yesterday's 
discussion, as well as today's. My apologies for not being 
here. There is another general at the Army Corps of Engineers 
that--to whom I had to give some attention this morning.
    The EDI fund, should that be part of the base? Or should it 
continue to be in OCO?
    General Scaparrotti. I have said I think eventually it 
should go to the base in order to get us into the base as a 
fundamental part of our security. And, as I stated earlier, I 
would just like to ensure that it is protected, you know. 
Congress has set this aside as EDI, you know, specifically for 
specific objectives to be attained and, as we go into the 
budget, to protect that clarity.
    Mr. Garamendi. So either way, you need EDI specifically for 
the work you are doing in Eastern Europe.
    General Scaparrotti. We do, absolutely. I need it because I 
do not have the force posture I need--that I believe I need, 
and it is going to take EDI to build that or that funding 
within the budget to do so.
    Mr. Garamendi. I just want to make it clear we are going to 
be dealing with this in the next couple of months, and we 
talked about it a little yesterday. It seems to me that we want 
to keep it separate, at least that word you used, 
``eventually.'' And I will just let that hang out there. But at 
least for the near term, I would think we need EDI and OCO 
separate and available to you to carry out--which, 
incidentally, in a tour of the Eastern European countries in 
the summer, you and your troops are doing an extraordinary job.
    General Scaparrotti. Thank you.
    Mr. Garamendi. And the heel-to-toe makes a lot of sense, I 
think, in the near term, as you have said in your testimony.
    A couple of other things. LNG [liquefied natural gas], 
which was mentioned, it is a tool--well, gas is a tool used by 
Russia for economic, political purposes. We are exporting gas 
here in the United States. It seems to me that something we 
ought to consider is the strategic tool to deter Russia. And it 
would be in our interests to subsidize natural gas, LNG, to 
Europe as a way of deterring Russia and pushing back in the 
most meaningful of ways--that is, their economy.
    I suspect we ought to do a little economic equation here 
and see what it would cost to provide LNG to Europe at a cost 
similar to what Russia is providing gas. It could give us 
significant leverage.
    With one final question and--do you need a new low-yield 
nuclear weapon to deter Russia?
    General Scaparrotti. Sir, in regards to the Nuclear Posture 
Review, the supplemental weapons systems that are a part of 
that are required. What it does is it ensures that we can be 
confident in a response across any scenario that might be 
projected. So I do believe we need those systems.
    Mr. Garamendi. Thank you. I will yield back. Thank you very 
much.
    General Scaparrotti. Thank you.
    The Chairman. General, you have answered lots of questions 
about hybrid information, political warfare. Part of the reason 
is I think we all are challenged by thinking of warfare in non-
traditional ways, and the role of the military in doing that.
    You answered a number of questions about EDI, and I think 
that conversation was very interesting.
    I just wanted to ask, to Mr. Garamendi's last question on 
nuclear deterrent, can you step back from particular weapons 
systems and talk more generally about the value of having a 
credible nuclear deterrent with an adversary who openly talks 
about using nuclear to counter conventional, about escalating 
to de-escalate, a--in a region where a lot of allies depend on 
our nuclear deterrent for their security?
    And one of my concerns is most--many of us thought that we 
did not have to worry about that stuff any more, and a lot of 
the--not only the weapons and the delivery systems, but the 
thinking atrophied after the fall of the Soviet Union. We have 
to pay more attention to it now.
    And so can you just, in a broader sense, talk about the 
role that a credible nuclear deterrent plays in what you are 
having--what you are trying to do every day?
    General Scaparrotti. Well, if I could, I will just focus 
on--you know, as you step back and look at a credible 
deterrent, and the importance of having one that--a credible 
deterrent that they understand is responsive across the 
spectrum, when you look at escalation management, you talked 
about, you know, the Russian comment that they will escalate to 
de-escalate, or escalate to dominate. This is a--you know, it 
is a cognitive exercise. It is an influence on the decision 
maker, on Putin on the other side.
    A credible nuclear capacity, a credible one, and our will 
to use it, if necessary, for the extreme case, known by the 
adversary, is paramount here--and then across the spectrum.
    You know, I think their escalate to de-escalate comments 
were centered on a capability at a low end to perhaps gain 
leverage. And what we are saying through the NPR is you won't 
have that leverage. We are going to drive this back to a higher 
threshold. And he can be confident in that, as we enter--if we 
would enter any kind of an escalation at all.
    So that is why it is important, because it is the mental 
approach to this to begin with.
    The Chairman. Well, I would just say, from my standpoint, 
we talked yesterday, I guess, about deterrence when it comes to 
space. We talk about deterrence when it comes to cyber. One of 
the challenges, I think, for all of us is to reinvigorate our 
deterrence thinking and intellectual--because, as you said, 
deterrence is in the mind of the adversary, and whatever domain 
we are talking about. And I think we have got some making up to 
do, maybe, there.
    Unless you have something else, I am good.
    Thank you, sir, for answering our questions. And the 
hearing stands adjourned.
    [Whereupon, at 12:04 p.m., the committee was adjourned.]



      
=======================================================================




                            A P P E N D I X

                             March 15, 2018

=======================================================================

      



      
=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                             March 15, 2018

=======================================================================

      

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]      
    
    
      
=======================================================================


              QUESTIONS SUBMITTED BY MEMBERS POST HEARING

                             March 15, 2018

=======================================================================

      

                   QUESTIONS SUBMITTED BY MS. SPEIER

    Ms. Speier. The Pentagon's FY19 budget request includes $6.5 
billion for the European Defense Initiative, more than doubling the 
FY17 budget of $3.4 billion. While the need to ensure deterrence and 
provide updated equipment in Europe is clear, it is also obvious this 
is a great deal of money. What are some examples protocols and 
procedures you have implemented at EUCOM to ensure that this money is 
and will be utilized appropriately?
    General Scaparrotti. USEUCOM is very appreciative of Congress' 
continued support for EDI. USEUCOM endeavors to be the best possible 
steward of these critical funds. USEUCOM reviews and prioritizes all 
EDI requests prior to submission to the Department's consideration in 
the budget submission. We work with our service components, who have 
the the vast majority of the funds. In doing so, we work hard to ensure 
that all items submitted support one of EDI's five lines of effort and 
meet the intent of EDI to deter Russian aggression and/or assure our 
Allies and partners. USEUCOM has also encouraged and actively supported 
the OSD (CAPE) led reviews of both the FY18 and FY19 EDI budget 
submissions to validate operational requirements, cost estimates, and 
feasibility of EDI requests. In the year of execution, all Repurposing 
and/or Reprogramming requests are reviewed and approved by USEUCOM at 
the General Officer level to ensure their alignment with the intent of 
EDI prior to being submitted to either the Comptroller or Congress 
respectively. As EDI potentially transitions to the Base budget, 
USEUCOM is working with OSD (CAPE) to explore additional ways USEUCOM 
can maintain awareness and oversight of EDI spending to ensure the 
integrity of the funding provided.
    Ms. Speier. What are your cyber warfare and cyber operations 
requirements? How is EUCOM working with U.S. Cyber Command (CYBERCOM)? 
Are there any policy or authority concerns?
    General Scaparrotti. [The information is classified and retained in 
the committee files.]
    Ms. Speier. What are examples where EUCOM successfully provided 
information to an ally on a terrorist threat and where EUCOM 
successfully combated digital terrorism?
    General Scaparrotti. [The information is classified and retained in 
the committee files.]
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MRS. MURPHY
    Mrs. Murphy. In your testimony, you highlighted that EUCOM's Joint 
Exercise Program and our Building Partnership Capacity activities with 
our allies have significantly improved our interoperability with NATO. 
You also mentioned that EUCOM is working with allies and partners to 
develop a shared framework for cybersecurity to ensure wartime 
interoperability. I represent a district in central Florida that is a 
hub for modeling, simulation, and training, including the focal point 
of the Army's new cyber training mission. My question is, how exactly 
does EUCOM integrate cyber defense and cyberspace operations into our 
joint exercises with our NATO allies?
    Also, are we seeing an increased demand signal for cyber training 
and capacity building from our allies and partners in the AOR? If so, 
how are we managing that demand, and what further resources could we 
apply--from a manpower, authority, or cyber range perspective?
    General Scaparrotti. USEUCOM incorporates cyber training objectives 
as they are linked to our top priority plans in all Joint Exercise 
Program exercises. We also include cyber mission sets within the 
command and control portions of exercise STEADFAST COBALT, NATO'S 
Mission Partner Network certification event. This annual exercise 
validates and certifies NATO's standby mission network requirements. 
EUCOM has seen a consistent increase in requests for cyber training and 
capacity building from both Allies and partners. We address this demand 
by partnering with the military services and defense agencies for 
access to training in the same manner we support training in the 
traditional warfighting domains. EUCOM partners with these DOD 
components to build courses tailored to cyber defense, including an 
International Cyberspace Operations Planners Course that we launched 
last year. We also leverage combined training events to build capacity 
and capability. These events range from bilateral cyber defense table-
top exercises up to and including efforts to integrate cyber defense 
and cyberspace operations into all major NATO training exercises. 
Interoperability at all levels is essential for effective cyber 
defense, and EUCOM is willing to train with Allies and partners at 
every level. For example, during the LOCKED SHIELDS cyber defense 
exercise and competition, we did not field a U.S. team; rather, U.S. 
cyber operators competed on combined teams with Estonia, Latvia, 
Canada, and Lithuania. EUCOM could use congressional assistance in 
clarifying which authorities must be used for security cooperation in 
the cyber domain, for example 10 USC 333 for building the capacity for 
foreign security forces. Added clarity will streamline approvals for 
rapidly building combined cyber defense capabilities, including the 
protection and defense of national infrastructure supporting combined 
operations.
    Mrs. Murphy. In your testimony, you mentioned that EUCOM is 
increasing its efforts to counter Russia's propaganda and 
misinformation campaigns through an interagency effort called the 
Russian Information Group. Would you tell us a little more about the 
Russian Information Group? Does this group amplify, or run counter to, 
the State Department's Global Engagement Center's mission to counter 
state-sponsored propaganda from Russia?
    General Scaparrotti. USEUCOM co-hosts with the Department of State, 
the Russia Information Group (RIG), an interagency working-level 
network established to respond collaboratively to the challenges posed 
by Russia in the information space in Europe. The RIG seeks to identify 
particular vulnerabilities, recognize malign influence, leverage 
particular agency responses, and ensure a coordinated U.S. government 
effort. The RIG is enabling collaboration in support of U.S. embassy 
country teams to counter malign influence using all instruments of 
national power. The RIG supports U.S. national level strategy. The 
Fiscal Year 2018 National Defense Authorization Act directs combatant 
commands to develop, in coordination with State Department, a regional 
information strategy and interagency coordination plan for carrying out 
the strategy. The RIG has a critical role in developing this strategy 
in coordination with the Office of the Secretary of Defense and the 
Department of State. The RIG also shares lessons learned with NATO and 
the EU to build a common understanding and increase cooperation. EUCOM 
and Department of State co-chair monthly teleconferences to exchange 
information and coordinate efforts relating to specific RIG projects, 
exchange current Intelligence Community (IC) updates, request IC 
support, and discuss current or emerging events and issues. 
Participants include: the National Security Council, Department of 
State, EUCOM, Joint Staff, Central Intelligence Agency, Office of the 
Secretary of Defense, U.S. Defense Intelligence Agency, Director of 
National Intelligence, Defense Intelligence Agency, Foreign Denial and 
Deception Committee, Department of Justice, Department of Energy, 
Central Command, Northern Command, Southern Command, Special Forces 
Command, Strategic Command, the Global Engagement Center and several 
embassies. The RIG also hosts biannual Senior Leader Steering Boards, 
which I co-chair with the Undersecretary of Defense for Policy. The 
board is composed of senior leaders from each of the departments and 
agencies represented at the RIG. The primary purpose of these meetings 
is to evaluate efforts over the past quarter and guide the RIG's 
forthcoming efforts over the next quarter. The RIG reinforces rather 
than duplicates the work of the Global Engagement Center (GEC). The GEC 
is a core member of the RIG and seeks to align organizational efforts 
in support of national strategy. The GEC has a legislative mandate to 
lead, synchronize, and coordinate USG counter-propaganda and 
disinformation efforts. Authorities granted to the GEC in NDAA enable 
it to conduct additional activities that other groups, like the RIG, 
cannot do such as, transfer funds, hire specialists, and gain wider 
data mining access.
    Mrs. Murphy. Many of our allies in Eastern Europe remain reliant on 
Russian military equipment. This reliance subsidizes the Russian 
defense industry, reduces interoperability with other NATO countries, 
and places NATO's frontline of defense at risk in the event of a 
conflict with Russia. Many of these states would like to purchase U.S. 
military equipment, but lack the resources to do so. Simply buying the 
equipment, in the numbers necessary to completely modernize eastern 
NATO militaries, would be prohibitively expensive, but there is another 
way. Instead, the United States could revive defense lending and 
offering financing to help eastern NATO members buy the equipment 
themselves. In time, this program could even become profitable. Has 
EUCOM considered this or other alternative ways to help eastern NATO 
allies modernize their militaries and reduce reliance on Russian 
military equipment?
    General Scaparrotti. EUCOM is acutely aware of the issues caused by 
our Allies' reliance on Russian military equipment. We certainly 
communicate these concerns to our Allies to make sure they understand 
the issues. We leverage the full spectrum of security assistance tools 
made available to us by Congress and the Department of State, including 
defense lending and financing. Should more options become available, we 
would leverage those as well. EUCOM fully supports revising the defense 
lending and financing rules to a more friendly approach to partner and 
Ally defense spending, especially as more of our NATO Allies move 
closer to meeting their defense spending and modernization goals. One 
such concept, which is a more cost effective approach, is lead nation 
procurement through a consortium, where the defense articles are shared 
among the consortium members. The current solution approach of one-to-
one replacements is cost prohibitive. Unfortunately, current 
legislation only allows for a consortium among NATO Allies. EUCOM 
sought, but the Department disapproved, a change to legislation that 
would permit consortia of Allies and Partnership for Peace (PfP) 
countries. I encourage Congress to consider such a modification in 2019 
so we can better facilitate and accelerate the replacement of Russian 
equipment in the countries which are the most susceptible to malign 
Russian influence.
    Mrs. Murphy. Since readiness is a top priority in your AOR, would 
you find value in increased funding for home station training 
capabilities to modernize instrumentation and simulation capabilities 
to train at home?
    General Scaparrotti. Your question conflates USEUCOM's operational 
readiness with Service readiness and might be answered best by our 
Service headquarters. A preponderance of USEUCOM's assigned forces are 
CONUS based rotational forces, consequently, efforts to modernize 
``home station'' training capabilities may benefit USEUCOM by 
increasing the proficiency and number of units available for sourcing, 
but these efforts would not necessarily equate to a marked increase in 
USEUCOM's readiness to execute operational plans. A top priority for 
USEUCOM and the Service Headquarters is to ensure the highest readiness 
of our deployed forces prior to leaving home-station, and while in 
theater. Due to environmental and host nation restrictions throughout 
USEUCOM's Area of Responsibility, the opportunity to train combat tasks 
is limited from the individual crew to the joint battle staff level. 
Therefore, any efforts to modernize and increase simulation 
capabilities would prove beneficial to our goal of maintaining the 
highest readiness of our forces. Some areas of opportunity where 
simulation capabilities could be of added training value are fires 
coordination, close air support, navigation, seamanship, ship handling, 
and unit and battle staff wargaming.
                                 ______
                                 
                    QUESTIONS SUBMITTED BY MR. BANKS
    Mr. Banks. Macedonia has demonstrated its resolve through its 
participation in NATO operations in Kosovo and Afghanistan and has been 
by our side in Iraq. As NATO adapts to an increasingly complex security 
environment exacerbated by strategic competition with Russia, admitting 
Macedonia as a full member to our key alliance is imperative.
    1) What is your position on admitting Macedonia as a full member of 
NATO?
    2) What can we do to assist Macedonia in attaining full membership?
    General Scaparrotti, the Nunn-Lugar Cooperative Threat Reduction 
(CTR) program has been a key nonproliferation enabler for EUCOM and the 
world for over 25 years. As part of your overall security cooperation 
efforts, CTR has been fundamental to greatly reducing the threat of WMD 
proliferation.
    3) General, where do you see successes in the CTR program 
historically, and now?
    4) General, how could the CTR program be more effective in your 
AOR?
    5) General, how would you reform US government nonproliferation 
efforts?
    You mention this maritime threat in your testimony, so I would like 
to focus my questions on the current and foreseeable anti-submarine 
threat from Russia.
    6) What are some of the challenges that you are seeing from a 
resurgent Russia related to anti-submarine capabilities?
    7) How is that nation developing that its maritime forces, 
particularly in the field of anti-submarine warfare, and how would you 
characterize the maritime threats they pose to the United States, our 
allies, and our partners? What are we doing to defend and where can we 
invest more resources?
    General Scaparrotti. (1 and 2) EUCOM fully supports Macedonia's 
NATO membership aspirations. The path to Alliance membership helps 
Macedonia more fully integrate into the Euro-Atlantic family of 
nations, energizes its governance reform efforts, and increases its 
capacity as a contributor to multi-national operations. EUCOM is 
working hand-in-hand with the Macedonian Armed Forces as they prepare 
for membership. Our security cooperation programs, such as 
International Military Education & Training, Foreign Military 
Financing, and multinational exercise program allow us to promote 
military professionalization, increase the capacity of defense 
institutions, and improve interoperability between Macedonian, U.S. and 
Alliance Member Armed Forces. The combination of all of these efforts 
greatly assist Macedonia in their aspirations for NATO membership.
    (3, 4 and 5) The CTR program initially targeted the former Soviet 
Union, and was very successful in eliminating WMD threats and assisting 
those nations in preventing the proliferation of chemical, biological, 
radiological, and nuclear threats. These efforts included elimination 
of nuclear warheads, delivery systems such as missiles and aircraft, 
and launch tubes in Belarus, Kazakhstan, Russia, and Ukraine as well as 
the destruction of Albania's chemical agent stockpile. Another 
significant success of the program was the destruction of 66 metric 
tons of chemical agents and precursor materials declared by Syria when 
they acceded to the Chemical Weapons Convention in 2013. This was the 
first time the program executed activities outside of the former Soviet 
Union and led to program determinations which enabled the Department of 
Defense to address proliferation prevention across multiple Combatant 
Commands' Areas of Responsibility. Expansion of the program as a 
proliferation prevention tool to other regions is a significant success 
and we hope this flexibility will continue. As CTR activities reach 
their culmination in the former Soviet Union nations, it is critically 
important we leverage the expertise and agility of response authorities 
the program provides to address proliferation challenges elsewhere in 
Europe. Expanding the authority to use the program in other nations in 
our area of responsibility would allow us to focus CTR activities on 
places where we see proliferation concerns, thereby increasing the 
overall effectiveness of proliferation prevention theater-wide. The 
U.S. government collaborates with other nations on preventing 
proliferation through multiple departments to include the Department of 
Defense. Much progress has been made to ensure these efforts are 
synchronized to prevent duplication of effort. We must promote 
interagency collaboration to attain efficiencies and to maximize the 
effectiveness of our tax dollars as we combat the WMD proliferation 
problem globally.
    (6 and 7) The Russian Federation Navy (RFN) has accelerated its 
deployment of highly capable submarines into the Atlantic and 
Mediterranean. Russia has worked diligently to increase the lethality 
and reduce the acoustic characteristics of their submarines which makes 
countering this threat significantly more challenging. Those vessels 
have expanded the reach of the Russian fleet and are integrated into 
ongoing Russian operations. Given the increased number and frequency of 
deployments, having sufficient forces with the appropriate capabilities 
available to hold RFN submarines at risk is essential.
    The RFN is continuing to modernize their forces by prioritizing 
multi-mission platforms capable of anti-submarine warfare (ASW), as 
well as other naval warfare disciplines such as land attack and surface 
warfare. As part of this effort, Moscow plans to complete three 
Grigorovich frigates in addition to the three that have been fielded in 
the Baltic and Black Sea Fleets. No timeline has been given due to 
delays caused in part by sanctions, but construction will resume using 
Russian-made engines. Grigorovich frigates are armed with KALIBR, 
Russia's advanced precision guided-missile system which includes an 
anti-submarine missile. Furthermore, these frigates are equipped with 
an ASW helicopter, which improves their ability to locate and track our 
submarines. The Kremlin also has five Steregushchiy II guided-missile 
frigates under construction in addition to the three Steregushchiy IIs 
assigned to the Baltic Fleet. While the operational Steregushchiys are 
not KALIBR capable, future vessels likely will be. These vessels are 
capable of anti-ship and anti-submarine warfare, and also field ASW 
helicopters. Concurrently with ASW surface vessel construction, the 
Kremlin plans to upgrade 28 IL-38s, an anti-submarine patrol aircraft 
by 2020. This improved aircraft will field an improved search-and-track 
system which will increase the efficiency of detecting and tracking 
submarines.
    In addition to bolstering their surface fleet, Moscow is building 
fourth-generation submarines, the Severodvinsk class guided-missile 
nuclear attack submarines (SSGNs), and Dolgorukiy class strategic-
missile submarines (SSBNs). One Severodvinsk SSGN is currently 
operational in the Northern Fleet, and Russia plans to commission five 
more Severodvinsk SSGNs by 2020, with the seventh by 2023. This KALIBR-
equipped submarine is multi-mission capable to include anti-surface, 
anti-submarine, and land attack roles.
    In regards to the eastern Mediterranean, Russia is postured as a 
credible threat to U.S. forces, allies, and interests. Moscow increased 
its ability to project force in the Eastern Mediterranean by 
strengthening the force posture of the Black Sea Fleet, located at 
Sevastopol, Ukraine and Novorossiysk, Russia. Six KALIBR-equipped Kilo 
diesel-electric submarines (SS) have been transferred to the Black Sea 
Fleet, with two of these currently stationed in Tartus, Syria. In the 
fall of 2017, these two Kilos launched land attack cruise missile 
strikes into Syria. Additionally, in March 2018, Russia deployed two 
Black Sea Fleet frigates to the Mediterranean. As part of this increase 
in operations, Tu-142s, long range anti-submarine aircraft, conducted 
submarine detection training exercises over the eastern Mediterranean 
in late March.
    The current submarine Naval Order of Battle presents significant 
challenges to the U.S. and allies, which will only increase as 
additional Dolgorukiy SSBN and Severodvinsk SSGN hulls enter service. 
Multiple Severodvinsk SSGNs will very likely strengthen the Russian 
Fleet's ability to project naval power, while additional Dolgorukiy 
SSBNs will bolster the Kremlin's strategic deterrence.
    EUCOM, Naval Forces Europe (NAVEUR), and the U.S. Sixth Fleet have 
been working tirelessly to improve our presence and posture in the 
region to deter and defend against a resurgent Russia. Specifically, 
with the help of Congress, European Deterrence Initiative funding has 
been critical in supporting improved anti-submarine warfare efforts and 
infrastructure.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. PANETTA
    Mr. Panetta. Do you believe the National Guard Partnership Program 
is valuable in helping you achieve your strategic objectives? How could 
it be more effective?
    General Scaparrotti. Yes, the National Guard State Partnership 
Program (SPP) remains one of European Command's most effective programs 
to promote access, enhance military capabilities, improve 
interoperability, and reinforce principles of responsible governance in 
support of the EUCOM's strategic priorities. USEUCOM's interlocking 
security relationships with a range of partners are an important source 
of stability in the region. One of our enduring priorities, 
``Strengthen Strategic Partnerships and Build Partner Capacity, 
Capability and Interoperability'' is a benchmark for the SPP. The 
unique civil-military nature of the National Guard allows active 
participation in a wide range of security cooperation activities, such 
as emergency management and disaster response, border and port 
security, natural resource protection, and containing transnational 
threats. Additionally, SPP has proven vital to the rapid integration of 
major defense articles into the force structure of our Allies and 
partners, which accelerates the timeline to achieving full operational 
capacity. To increase the value of SPP, we will continue to apply SPP 
activities to theater-level objectives with a focus on regional 
approaches. This will allow us to leverage SPP to find commonalities 
among countries for ready and postured forces. NATO identifies 
capabilities and promotes their development and acquisition by Allies 
so it can meet security and mutual defense objectives. This regional 
approach will empower SPP engagements to focus on aiding partner 
nations and Allies to develop NATO capability targets to meet their 
collective defense obligations. The SPP can become even more responsive 
to the requirements in theater through expanded authorities to cover 
the costs of National Guard salaries. I encourage Congress to support 
broader authorities and resources to enable expansion of the National 
Guard as a force provider.
    Mr. Panetta. With limited Active Component forces in Europe, how 
are you utilizing the National Guard and Reserves to enhance U.S. 
presence?
    General Scaparrotti. USEUCOM continues to leverage all available 
sources of personnel and forces to support our theater requirements. 
The U.S. supports NATO's augmentations in deterrence and defense 
forces, and the National Guard is starting its first rotations in 
support of the Enhanced Forward Presence (eFP) mission. The Army's 2nd 
Cavalry Regiment will hand off the eFP mission to the National Guard in 
September 2018. The 278th Armored Cavalry Regiment of the Tennessee 
Army National Guard will lead the NATO eFP battle group in Poland also 
lead the Joint Multinational Training Group-Ukraine. The unit from 
Tennessee is on a mobilization order for 365 days, and is expected to 
lead the training and support mission for nine months. Additionally, 
the Air National Guard provides significant theater support totaling 
approximately 120,000 man days historically. This supports the Polish 
AvDet, Theater Security Packages, Joint/Component and other exercises/
events, tanker and airlift augmentation, and other miscellaneous 
requirements stemming from increased activities funded through EDI. The 
State Partnership Program (SPP) provides key National Guard presence in 
Europe. The state partners are not only critical force providers for 
military-to-military engagements but also have the most enduring 
relationships with our Allies and partners. USEUCOM sees the addition 
of mobilized forces as an alternative force provider demonstrating the 
professionalism of our citizen soldiers and looks forward to continued 
support from the National Guard and Reserves.
    Mr. Panetta. Is our current force posture in Ukraine sufficient to 
meet the strategic priority of deterring Russian aggression? Would a 
more robust train, advise, and assist mission provide greater deterrent 
value?
    General Scaparrotti. I believe our current force posture is 
sufficient to meet our national partnership goals with Ukraine, which 
are to assist the Ukrainians with building a modern, sustainable, and 
NATO-oriented training system and training infrastructure in support of 
their own national defense requirements. We have been conducting the 
Joint Multinational Training Group-Ukraine since 2016 with the support 
of Active Component and National Guard soldiers, to include soldiers 
from the California National Guard. These efforts are complemented by 
the efforts of civilian and ministry advisory teams who assist Ukraine 
with establishing sustainable force management, logistics, medical, and 
other key capabilities. We appreciate the continued efforts of the 
California National Guard through the State Partnership Program over 
the last 25 years to build a strong and enduring relationship to 
support EUCOM priorities. I would like to reemphasize the essential 
role of our Reserve Component, in particular the National Guard, in 
Ukraine and in our efforts in Europe overall, particularly given our 
limited permanently-stationed forces. EUCOM has benefitted by 
provisions in the European Deterrence Initiative that allow for funding 
reserve component pay and allowances for security force assistance and 
other deterrent activities. I encourage Congress to sustain or even 
expand these kinds of provisions in future legislation.

                                  <all>
</pre></body></html>
